<html>
<title> - GREEN BUILDINGS: BENEFITS TO HEALTH, THE ENVIRONMENT, AND THE BOTTOM LINE</title>
<body><pre>[Senate Hearing 110-1088]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1088
 
 GREEN BUILDINGS: BENEFITS TO HEALTH, THE ENVIRONMENT, AND THE BOTTOM 
                                  LINE 

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-930 PDF                       WASHINGTON : 2011

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov For more information, contact the GPO 
Customer Contact Center, U.S. Government Printing Office, Phone 
202-512-1800 or 866-512-1800 (toll free), E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6">[email&#160;protected]</a> 















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 15, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     3
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5

                               WITNESSES

Fox, Robert F., Jr., partner, Cook+Fox Architects................     8
    Prepared statement...........................................     9
Templeton, Peter, vice president of Education and Research, U.S. 
  Green Building Council.........................................    20
    Prepared statement...........................................    22
Barnett, Claire, executive director, Healthy Schools Network.....    27
    Prepared statement...........................................    29
Tonjes, Ray, chairman, Green Building Subcommittee, National 
  Association of Home Builders...................................    35
    Prepared statement...........................................    37
    Responses to additional questions from:
        Senator Sanders..........................................    44
        Senator Inhofe...........................................    44
Hubbell, Ward, president, Green Building Initiative..............    48
    Prepared statement...........................................    49
    Supporting Documentation.....................................    59
    Responses to additional questions from:
        Senator Sanders..........................................    89
        Senator Warner...........................................    89
        Senator Inhofe...........................................    90

                          ADDITIONAL MATERIAL

Letters from:
    United Brotherhood of Carpenters and Joiners of America......   100
    The North American Coalition on Green Building...............   103
    MCS Beacon of Hope Foundation, Largo, FL.....................   105
    The American Institute of Architects.........................   107
    Alliance for Sustainable Built Environments..................   109
    National Education Association...............................   110
    Johnson Controls, Inc........................................   111
    Environmental and Energy Study Institute.....................   112
    Child Proofing Our Communities, Project of the Center for 
      Health, Environment & Justice..............................   114
    Collaborative for High Performance Schools...................   116
Statement, Stockton Williams, senior vice president/managing 
  director, Enterprise Community Partners........................   117
Reports:
    Lessons Learned..............................................   123
    New York State School Facilities and Student Health, 
      Achievement, and Attendance................................   190


 GREEN BUILDINGS: BENEFITS TO HEALTH, THE ENVIRONMENT, AND THE BOTTOM 
                                  LINE

                              ----------                              


                         TUESDAY, MAY 15, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. Barbara 
Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Alexander, 
Cardin.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Good morning, everyone. Just to give you the 
lay of the land, I am really pleased that we are having this 
hearing today. We have two members of this committee who have 
been real leaders on green buildings. One of them has been 
Senator Lautenberg and the other has been Senator Warner. So we 
have had great bipartisan interest in this.
    I am going to, if there is no objection, place my statement 
in the record and just be clear about my intentions with this 
bill, and say to Senator Lautenberg and Senator Warner's staff 
if they are here, my intention, working with Senator Inhofe I 
hope in a cooperative way--we will see where it goes--is to 
bring a green buildings bill up for a markup very soon.
    What we have already started doing here is making the 
Federal Government a model of energy efficiency. I am very 
proud that we passed our first such bill which would retrofit 
Federal buildings, and we did this with the Administration, 
with Republicans and Democrats working together. We also added 
as a piece of that legislation a grants program to cities and 
counties so that they could do the same with their government 
buildings. There are thousands and thousands and thousands of 
government buildings, and buildings use a lot of energy. If you 
look at just greenhouse gas emissions, they are responsible for 
about 40 percent of those emissions.
    So I am very pleased that we are doing this. Senator 
Lautenberg, I love you for your efforts and I do, as well, 
Senator Warner. I am excited about this.
    Just one last point, over at the Commerce Committee, on 
which I serve, we were able to get another piece of legislation 
through which would have the Federal Government now to the 
greatest extent practicable purchase the most fuel efficient 
vehicles. So if we do the retrofits of the buildings and, of 
course, green buildings looks forward, and part of your bill, 
which I strongly support, are grants to schools to do the same. 
We are beginning to make a dent in this issue and we are 
showing leadership.
    My schedule is such that WRDA is on the floor today. We are 
very anxious to finish work on that bill. I know a lot of you 
want us to. So I am going to be leaving now. Senator Inhofe, I 
know, is going to follow after his statement. We are going to 
meet on the floor and try to get these amendments to WRDA down 
to a reasonable number, and do our best to do our magic and get 
this done tonight. If we could get this WRDA bill done tonight, 
it would be a tremendous accomplishment for both sides.
    So with that, I am going to call on Senator Inhofe. I am 
going to hand the gavel to my good and dear friend, Senator 
Lautenberg, who has it.
    Senator Inhofe, the floor is yours.
    And thank you, Senator Lautenberg.
    Senator Lautenberg [Presiding]. Thanks very much, Senator 
Boxer. We will try to move this along. It is a very important, 
as you have acknowledged, piece of legislation, something that 
needs attention that is almost harmless if we pay attention to 
it, in helping us achieve a better greenhouse gas record.
    Senator Inhofe, I am reminded, the former Chairman, 
presently just a would-be Chairman.
    Senator Inhofe. No, will be.
    [Laughter.]
    Senator Lautenberg. Well, that starts the morning off 
freshly.
    [Laughter.]

STATEMENT OF HON. JAMES INHOFE, U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Inhofe. Thank you very much, Mr. Chairman.
    First of all, we went through this exercise a year ago, and 
we worked things out with Senator Jeffords. There are some good 
things to come from this that I support. There are some things 
that I want to watch out for.
    Let me do a couple of things. First of all, I would like to 
submit for the record at the conclusion of my statement the 
letters from the United Brotherhood of Carpenters and the North 
American Coalition on Green Building.
    Senator Lautenberg. Without objection, so ordered.
    Senator Inhofe. Then also I do want to submit my statement 
in its entirety for the record. But I want to say that as this 
moves along, I want to be a little bit cautious of a couple of 
things. One is what we are prescribing in the way of grants to 
school districts or to schools. I want to be very careful, Mr. 
Chairman, on how we treat the local communities and the zoning 
regulations. I spent four terms as Mayor of a major city. I can 
tell you there is nothing more offensive than having the 
Federal Government come in and say what you can and can't do 
with your community. So I think we need to have some sanity 
there and look at it very carefully.
    So with those things in mind, I am hoping that we will be 
able to get something out and get it on the floor for a good 
debate. I submit my entire statement for the record, and I 
thank the Chairman.
    [The prepared statement of Senator Inhofe follows:]
Statement of Hon. James M. Inhofe, U.S. Senator from the State Oklahoma
    Thank you, Madam Chairman. I appreciate you holding this hearing 
today to discuss some of the issues relating to green buildings.
    Today we will hear from our panel of five green building experts 
about some of the benefits that can be realized through following the 
principles of so-called ``green building.'' Two of the goals of green 
building that are of particular merit are increased energy efficiency 
and improved water management.
    Increased energy efficiency--along with developing new domestic 
sources of energy and ensuring a diverse energy supply--is a key 
component of improving our nation's energy security. Just a few weeks 
ago, Madam Chairman, we unanimously passed a bill out of this 
committee--the Public Buildings Cost Reduction Act--that is a sensible, 
effective step toward improving energy efficiency in public buildings 
at both the Federal and local levels.
    Effective use of green building design can also be used by 
communities across the country struggling to comply with the federal 
stormwater management program. These communities within metropolitan 
districts must take measures to reduce rainwater from coming into 
contact with pollutants. Green roofs filter, absorb and detain 
rainwater, reducing the amount being discharged into the municipal 
stormwater system and thus reducing the burden on the local community.
    I look forward to hearing more about these topics from our 
witnesses today.
    I am also interested, Madam Chairman, in learning more about some 
of the concerns with current green building practices and what we can 
do to address those concerns in any legislation we may consider in this 
committee.
    One concern I have heard expressed repeatedly by a number of groups 
and industries is that of establishing a mandate or endorsement for any 
one particular green building rating system. To date, numerous State 
and local governments have put in place various mandatory measures that 
call for the adoption of LEED standards [--the U.S. Green Building 
Council's Leadership in Energy and Environmental Design rating system 
for green buildings--] and there is legislation before this committee 
that specifically refers to LEED. The LEED system, however, was 
intended to be a voluntary program; additionally, there are other green 
buildings rating systems on the market. Promoting one system over 
others in legislation essentially amounts to brand endorsement by law.
    At this point, I would like to submit for the record letters from 
the United Brotherhood of Carpenters and the North American Coalition 
on Green Building stating their concern with referencing only the LEED 
system in green building legislation.
    I am pleased to welcome Mr. Ray Tonjes from the National 
Association of Home Builders today. I look forward to hearing your 
perspective on this matter, in addition to learning about your 
involvement in green building programs. I also look forward to hearing 
from Mr. Ward Hubbell, president of the Green Building Initiative, 
about the Green Globes rating system and what your organization is 
doing.
    We should pursue the goals of energy and resource conservation. 
During our consideration of green building legislation, however, we 
need to bear certain questions in mind.
    It's my understanding that buildings built ``green'' don't always 
perform as intended--what research still needs to be done on the actual 
benefits of green buildings? What standards and benchmarks are 
currently being used for various aspects of building design and 
certification? What mandates might we be creating, and what would be 
the consequences of those mandates? While many of the goals of green 
building are worthwhile, I am concerned about the possibility of 
legislating mandates--intended or otherwise--that would be costly and 
burdensome to our taxpayers and communities.
    I look forward to our panel addressing these issues today. Thank 
you, Madam Chairman.

    [The information referred to follows on pp. 100-104.]

STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM THE STATE 
                         OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Senator Inhofe.
    While there is nothing more offensive to communities than 
getting mandates from Washington, I don't hear that same 
objection when it comes to grants from Washington, but I guess 
that is understandable.
    I take the Chairman's gracious gavel turnover, and I 
therefore assume the status of Chairman and I welcome everyone 
to today's hearing.
    When most people consider what hurts the environment and 
harms public health, they don't consider buildings. Our 
thoughts immediately turn to transportation, which is 
responsible for about one third, it is believed, of greenhouse 
gases, but buildings have an impact on the health of the 
environment and the health of nearly every American. That is 
because buildings from single family homes to skyscrapers are 
responsible for nearly 40 percent of America's greenhouse 
gases.
    Those emissions advance global warming and threaten the 
health of our planet and our children. Poorly designed schools 
can have an unhealthy air quality. This poor air quality can 
cause an increase in childhood asthma. More than 67 percent of 
schools have at least one building design condition that 
contributes to asthma, according to a recent study. The Health 
Schools Network ran this study, and I look forward to their 
testimony on their report.
    In comparison to standard buildings, the average green 
building uses 30 percent less energy, emits nearly 40 percent 
fewer emissions, and has far better air quality. Green 
buildings also have smaller electric bills, which save owners 
and tenants on the cost on their bottom line. But if we want 
the private sector to go green, the Federal Government needs to 
take a leadership role and go green also.
    The Federal Government is the largest owner and renter of 
buildings in the Nation, and one of the largest emitters of 
greenhouse gases in the entire world. So I have a bill that I 
first introduced with Senator Jeffords in the 108th Congress, 
and have recently reintroduced to get government to lead on 
this issue, the High Performance Green Buildings Act.
    So I appreciate the support that Chairman Boxer, and 
Senators Snowe, Cardin, Clinton, Kerry, Lieberman, Menendez, 
Sanders, Klobuchar and Whitehouse have shown by cosponsoring my 
bill. This legislation would blend sustainable design into 
Federal buildings, help our buildings on the course to earn 
leadership in energy, environment and design. The acronym is 
LEED. They issue a silver rating.
    It would also provide grants, as Chairman Boxer noted, that 
model development guidelines to schools to improve the quality 
of the air that they breathe there. Tom Friedman, noted author 
and journalist, wrote in The New York Times, ``Green is the new 
red, white and blue.'' Many private companies are doing their 
part to show this new patriotism. We will hear from the 
architect of a new Bank of America green building today.
    The States are doing their part. New Jersey and 21 other 
States have signed bills similar to my legislation and it is 
time for the Federal Government to show its new colors. So we 
want to promote the environment and public health by working 
toward green buildings.
    Senator Alexander, please, if you want to, make a statement 
within a 5-minute period. Please do so.

STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM THE STATE 
                          OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. I congratulate 
Senator Lautenberg on his leadership on this piece of 
legislation. I simply wanted to come by and say that.
    One way to create a green building is through solar 
photovoltaic cells, which produce electricity at the building. 
That is important to us in Tennessee because we have pretty big 
clean air problem. We have problems with sulfur, nitrogen and 
mercury. Solar energy doesn't produce any of that.
    On the other end of our State in Memphis, Sharp, which came 
to Tennessee to make television sets when I was Governor 20 
years ago, is now the leading manufacturer of solar 
photovoltaics and the market leader in the United States. Its 
manufacturing facility is that old television factory. They 
build the television sets now in Mexico, but they have employed 
even more people building solar photovoltaics. So I hope 
Tennessee will become the center of solar cell manufacturing in 
the United States.
    Another point, Mr. Chairman, a lot of people assume that 
only places like Arizona or similar locations can be useful 
places for solar. Germany, which has about 40 percent less 
solar energy available than the Tennessee Valley region, is the 
world's leader in the use of solar power. So we believe that 
technology is likely to show us that in buildings and in other 
ways that solar energy can be very helpful.
    As far as renewable power, I myself prefer it to the huge 
300-foot giant wind turbines with flashing red lights. I like 
the solar energy better and I am very hopeful that it works.
    Oak Ridge National Lab, TVA, Habitat for Humanity, the 
Department of Energy, are building zero-energy houses in Lenoir 
City. The John J. Duncan Federal Building in Knoxville is a 
great example of creative retrofitting of an 18-year-old 
Federal building that is making an extraordinary environmental 
impact.
    So Mr. Chairman, your legislation and this hearing are very 
helpful in helping us in the Tennessee Valley look for new ways 
to have clean air, produce more of our own renewable energy, 
and create jobs, especially in Memphis at the Sharp 
manufacturing plant. I thank you for the chance to make these 
opening remarks.
    Senator Lautenberg. Senator Alexander, it is encouraging to 
have your positive view on this. I appreciate it.
    Senator Alexander. Thank you.
    Senator Lautenberg. Senator Cardin.

STATEMENT OF HON. BENJAMIN CARDIN, U.S. SENATOR FROM THE STATE 
                          OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. Let me ask that my 
entire statement be put in the record.
    First, let me just congratulate you for your leadership on 
this issue. This is a very important subject dealing with green 
buildings, particularly with the Federal Government exercising 
leadership. As you pointed out, I am a cosponsor of your bill 
and I think we need to move legislation in this area.
    I am going to suggest that we modify your proposal with two 
additional provisions to strengthen green buildings, with the 
Federal Government exercising the leadership. I think as was 
pointed out by Senator Boxer and yourself, the Federal 
Government really needs to step up to the plate and provide the 
national leadership for green technology and for energy 
savings.
    We need to become energy independent. We need to do that 
for the sake of our security, as well as the sake of our 
environment.
    Buildings consume, as you pointed out, such a large amount 
of our energy needs. The LEED-certified buildings in the United 
States are an aggregate savings of 150,000 metric tons of 
carbon dioxide. That is the equivalent to 30,000 passenger cars 
not driven for 1 year. So as you can see, there is a 
significant advantage if we have green buildings in this 
country.
    I have introduced S. 1165 that would require new Federal 
buildings to meet the LEED's silver standard, which I think we 
should do. We have that technology and it is the right policy 
and it shows the right leadership.
    My legislation would also add one additional area of 
concern in Federal buildings, and that is to deal with the 
runoff issues. Let me just give you one example in the 
Chesapeake Bay. Development is increasing faster than the 
population. Population growth in the Chesapeake watershed, for 
example, increased by 8 percent during the 1990's, but the rate 
of impervious service increased by 42 percent. Putting 
pollutants into our streams, rivers and oceans imposes a 
significant problem for the Chesapeake Bay.
    So my suggestions would be that we have the Federal 
Government really exercise leadership in this area by a 
commitment for new construction to meet the LEED's silver 
standard and that there be standards in our Federal 
construction that deal with the runoff issues. I think if we 
did that, we would really be sending the right signal to the 
private sector that we really can make a significant reduction 
in the use of energy, which will help us with energy 
independence, and a significant reduction in carbon dioxides 
which will help us with the global climate change issue.
    Once again, Mr. Chairman, I thank you for holding this 
hearing, and I thank you for your leadership in bringing this 
issue to the attention of the U.S. Senate.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madame Chairman, thank you for holding this hearing. We need to 
make this country energy independent, and to enact a comprehensive, 
long-term energy policy that will give Americans the energy they need, 
while protecting our environment and our national security.
    Senators Lautenberg and Warner have both introduced legislation 
that I support, and I have introduced legislation that compliments 
these bills--the American Green Building Act, S. 1165. We can do more.
    Our Federal Government is the largest single energy consumer in the 
world.
    Buildings account for over a third of America's energy 
consumption.--Buildings also account for 49 percent of sulfur dioxide 
emissions, 25 percent of nitrous oxide emissions, and 10 percent of 
particulate emissions, all of which damage our air quality. Buildings 
produce 38 percent of the country's carbon dioxide emissions--the chief 
pollutant blamed for global warming.
    Federal buildings are a large part of this problem.
    Energy used in Federal buildings in FY 2002 accounted for 38 
percent of the total Federal energy bill.--Total Federal buildings and 
facilities energy expenditures in FY 2002 were $3.73 billion.
    The American Green Building Act would require all new Federal 
buildings to live up to green building LEED (Leadership and Energy in 
Environmental Design) Silver standards, set by the United States Green 
Building Council. These standards were created to promote sustainable 
site development, water savings, energy efficiency, materials 
selection, and indoor environmental quality.
    The average LEED-certified building uses 32 percent less 
electricity, 26 percent less natural gas and 36 percent less total 
energy.--LEED-certified buildings in the United States are in aggregate 
saving 150,000 metric tons of carbon dioxide reduction equivalent to 
30,000 passenger cars not driven for one year. A single LEED-certified 
building is designed to save an average of 352 metric tons of carbon 
dioxide emissions annually, which is equivalent to 70 passenger cars 
not driven for one year.
    In the American Green Building Act, the LEED Silver standard would 
only apply to federal buildings for which the design phase for 
construction or major renovation is begun after the date of enactment 
of the provision. The General Services Administration or relevant 
agency may waive this requirement for a building if it finds that the 
requirement cannot be met because of the quantity of energy required to 
carry out the building's purpose or because the building is used to 
carry out an activity relating to national security.
    My bill will also require that significant new development or 
redevelopment projects undertaken by the Federal Government plan for 
storm water runoff.-- The hardened surfaces of modern life such as 
roofs, parking lots, and paved streets, prevent rainfall from 
infiltrating the soil. Over 100 million acres of land have been 
developed in the United States. Development is increasing faster than 
population: population growth in the Chesapeake Watershed, for example, 
increased by 8 percent during the 1990s, but the rate of impervious 
surface increased by 42 percent. Development not only leads to 
landscape changes but also to contamination of storm water runoff by 
pollutants throughout the watershed. Storm water runoff can carry 
pollutants to our streams, rivers, and oceans, and poses a significant 
problem for the Chesapeake Bay.
    Every other pollution source in the Chesapeake is decreasing, but 
pollution from storm water runoff is increasing.--In urbanized areas, 
increased storm water runoff can cause increased flooding, stream bank 
erosion, degradation of in-stream habitat and a reduction in 
groundwater quality. For these reasons, as the Federal Government moves 
forward with development, we need to plan for how to manage storm water 
runoff. The storm water provisions in the American Green Building Act 
will be used to intercept precipitation and allow it to infiltrate 
rather than being collected on and conveyed from impervious surfaces.
    The Federal Government must take the lead if we are to achieve our 
energy and environmental goals.

    Senator Lautenberg. Thank you very much, Senator Cardin.
    Now we have a panel of witnesses, all with whom have 
expertise on different elements of green buildings, including 
residential, commercial and schools. I welcome them to the 
table.
    Bob Fox, Peter Templeton, Claire Barnett, Ray Tonjes, and 
Ward Hubbell, I thank all of you for joining us. I would, as 
the witnesses take their seats, mention that Mr. Fox is the 
architect who led the development of the Bank of America 
building in midtown Manhattan. It is a fantastic 
accomplishment. The building will be the first ever high rise 
office building to achieve the prestigious LEED platinum 
rating. Mr. Templeton is the vice president for LEED at the 
United States Green Building Council.
    Ms. Barnett is executive director of the Health Schools 
Network. Mr. Tonjes is chairman of the Green Building 
Subcommittee of the National Association of Home Builders. Mr. 
Ward Hubbell is president of the Green Building Initiative.
    I thank all of you for joining us. I now ask you to present 
a summary of your testimony. Please do that within 5 minutes. 
We will try to get through and have a chance to interact with 
some questions.
    I would ask you, Mr. Fox, to testify first. Thank you.

 STATEMENT OF ROBERT F. FOX, JR., PARTNER, COOK+FOX ARCHITECTS

    Mr. Fox. Thank you, Senators. I consider this a privilege 
and an honor to be invited here today to speak with you.
    I am a partner in the architectural firm of Cook+Fox in New 
York City. I have spent my 40-year career working in and around 
New York City. I am privileged to have worked on buildings like 
Four Times Square, the first green high rise building, the 
Battery Park City guidelines, and the Bank of America Tower 
that you mentioned. I also serve on the Mayor's Sustainable 
Committee for the new 2030 Plan for the City of New York.
    One Bryant Park is a partnership between the Bank of 
America and the Durst family. It is 2.2 million square feet and 
it will cost $1.3 billion. We started designing this building 
as a high performance building, wanting to produce the absolute 
best building we could. I was convinced when we started that we 
could never have gotten LEED platinum, so we just put our heads 
down and went to work. After we finished our design and then 
looked at LEED, we were delighted that in fact we were a LEED 
platinum building.
    In terms of the energy of this building, it will consume 
about one half the energy of a normal building. We are doing 
that primarily with a large cogeneration plant of 5 megawatts 
that we are locating in the building. It will produce 67 
percent of the building's annual energy, and at night when we 
don't need that energy, it will make ice, which we will melt 
during the day to supplement the air conditioning system.
    We also have a daylight dimming system throughout the 
building. The brighter the sun, the dimmer the lights. We are 
saving 50 percent of the water. I just read in the paper today 
that the cost of water has gone up 40 percent in New York City 
since we started the design of this project in 2003. We will 
harvest all of the rainwater. We will use that water to flush 
the toilets. We also have waterless urinals for the first time 
in a high rise building in New York City.
    We are using blast furnace slag instead of half the cement 
for this building. It is a waste product of the steel industry 
and it makes wonderful cement, actually better than using 100 
percent cement. The ceiling in our lobby will be made of 
bamboo, a rapidly renewable resource.
    The indoor air environment will be second to none. It will 
be like a hospital. We will have 95 percent filters on the 
incoming air. Thirty-five percent is the normal. We will be 
delivering the air from under the floor with individual 
controls for every occupant in the building, and every employee 
in the building will have access to daylight. They will all be 
able to see out and see what the weather is.
    We have found that LEED for us is the common language of 
the green building industry. It is an amazing product because 
it is the result of a volunteer effort by architects, 
engineers, builders, and manufacturers that have donated to the 
U.S. Green Building Council over 600,000 hours of volunteer 
time creating this document. It is being revised as we speak. 
If you think about the cost of that and just assign a $200 per 
hour cost, that is $120 million of professional volunteer time. 
That is some standard.
    So I thank you very much for this opportunity.
    [The prepared statement of Mr. Fox follows:]
     Statement of Robert F. Fox, Jr., Partner, Cook+Fox Architects
    Good morning. Thank you very much for the opportunity to be here 
today.
    My name is Bob Fox, and I am a Partner at Cook+Fox Architects in 
New York City, a firm known for designing beautiful buildings that save 
energy and resources, While enhancing health and improving the bottom 
line. This has been the focus of my 40 year career. Beginning in 1995 I 
was the Architect for Four Times Square, which was the country's first 
green skyscraper, and which was designed when the industry had no 
common standard for defining a ``green building.'' In 1999 I led the 
team that created Residential and Commercial Environmental Guidelines 
for the Battery Park City Authority, a public-private entity that 
controls 92 acres of Lower Manhattan. Since then, The Guidelines have 
been followed by all projects built in Battery Park City, which by 2010 
will result in over 5 million square feet of LEED Gold buildings. 
Currently, I serve on the Advisory Council for Mayor Michael 
Bloomberg's Office of Long-Term Planning and Sustainability, which in 
April released PlaNYC, a comprehensive agenda for sustainable growth 
over the next 30 years.
    Cook+Fox is the Architect for the new Bank of America Tower at One 
Bryant Park, a 2.2 million square foot, $1.3 billion commercial 
headquarters, developed jointly by the Bank of America and the Durst 
Organization. It is currently under construction on 6th Avenue and 42nd 
Street in Midtown Manhattan. When completed in 2008, it will be the 2nd 
tallest building in New York City, standing 945 feet to the top of its 
roof. Most importantly, it will be the first high-rise office tower in 
the country to achieve a LEED Platinum rating, the highest possible 
certification from the U.S. Green Building Council.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    I am here to speak today because buildings are leading consumers of 
energy and emitters of the greenhouse gases responsible for climate 
change. Nationwide, the building sector accounts for 43 percent of 
carbon dioxide emissions, and buildings consume 71 percent of all 
electricity generated.\1\ In dense urban areas, buildings can represent 
the dominant source of emissions. When New York City recently completed 
its first comprehensive Inventory of Greenhouse Gas Emissions, it was 
found that 79 percent of the city's carbon dioxide emissions come from 
its buildings.\2\
---------------------------------------------------------------------------
    \1\ Oak Ridge National Laboratory. Towards a Climate-Friendly Built 
Environment. Arlington: Pew Center on Global Climate Change, 2005.
    \2\ New York City. PlaNYC: A Greener, Greater New York. April, 
2007. (http://www.nyc.gov/html/planyc2030/html/plan/plan.shtml)
---------------------------------------------------------------------------
    The United States, with only 4.5 percent of the world's population, 
is responsible for 25 percent of worldwide carbon dioxide emissions.\3\ 
Buildings represent a large part of the problem, because as currently 
designed and operated, they waste enormous amounts of energy as well as 
clean water and other resources. Green buildings make it possible to 
create offices, homes, and institutions that perform better than 
conventional buildings on all levels, saving energy and water, 
improving health and productivity, and saving money.
---------------------------------------------------------------------------
    \3\ World Resources Institute. 2007. EarthTrends: Environmental 
Information. (http://earthtrends.wri.org). Washington, DC: World 
Resources Institute.
---------------------------------------------------------------------------
    The green building industry has grown steadily, and then rapidly 
accelerated over the last 10 years. Both the public and the private 
sector are witnessing the benefits of green building, and momentum is 
growing for the transformation of architectural and engineering 
practices, real estate markets, local building codes, and building 
services and suppliers. In 2006, the American Institute of Architects 
challenged practicing professionals to immediately cut fossil fuel 
consumption by 50 percent in the buildings they are designing. They 
further challenged the industry to increase reductions over the next 30 
years, resulting in carbon-neutral buildings by 2035 Cities States and 
U.S. Government agencies have been among the first to experiment with 
and experience the operational cost savings and superior indoor quality 
of high-performance green buildings.
    In large cities like New York, green buildings are being recognized 
as an essential part of planning for future growth, maintaining the 
urban infrastructure, and protecting health and quality of life. With 
urban populations growing rapidly, cities across the United States face 
great challenges, but can also benefit from urban density. Because of 
the density of apartment buildings and reliance on mass transit, New 
Yorkers produce 71 percent less CO<INF>2</INF> per capita than the 
average American.\4\ Cities, therefore, that invest in sustainable 
growth can be an important part of the solution.
---------------------------------------------------------------------------
    \4\ New York City. PIaNYC: A Greener, Greater New York. April, 
2007. (http://www.nyc.gov/html/planyc2030/html/plan/plan.shtml)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Bank of America Tower, with 2.2 million square feet of premium 
office space, will consume about half the energy and water of a typical 
building of its size, while creating the healthiest most productive 
possible work environment for its occupants. It was designed to take 
advantage of a world-class public transit system: in getting to work, 
the tenants of the building will generate only \1/20\<SUP>th</SUP> the 
energy of the average suburban commute. With 8000 workers arriving each 
day, the building will have zero parking spaces.
    The Bank of America Tower will earn a LED Platinum certification 
through an integrated approach to green building practices and 
technologies. When we began the project, the goal was to create the 
most high performance building possible: one that would use far less 
energy, far less water, create a high quality interior environment, use 
materials with high recycled content and no Volatile Organic Compounds 
(VOCs), and recycle all construction debris. After we had finished our 
basic design we turned to LEED, the industry standard and clearly the 
most advanced measuring tool, to see how well we had done. We were 
delighted to learn we had the potential to earn a Platinum 
certification.
    Energy efficiency in buildings can be drastically improved with 
today's strategies and technology. Typically, when power is generated 
in our country, approximately \2/3\ of the energy goes directly up the 
smokestack in the form of waste heat. After additional transmission 
losses, what arrives at the typical building is only about 27 percent 
of the total energy created. Instead, the Bank of America Tower will 
have an on-site, 5 megawatt power plant producing clean energy from 
natural gas at 77 percent efficiency. Using cogeneration technology, 
this giant turbine will produce electricity, then use the waste heat to 
generate even more power. It will be enough to provide approximately 67 
percent of the building's annual energy needs with clean, efficient 
supply.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Like most large cities, New York has an electric grid that 
struggles to keep up with demand during peak times. At these times, the 
power utility is forced to turn on its oldest, dirtiest ``peaks'' 
plants. It has been estimated that 90 percent of the air pollution in 
the city comes from just 50 percent of its power plants. One of the 
goals at the Bank of America Tower was to ensure the building did not 
contribute to this burden on the city's infrastructure. The building 
will have a thermal storage plant in the cellar, with 44 large tanks 
making ice at night, when energy demand is low and the cogeneration 
plant is producing more power than the building needs. During the day, 
the ice melts to supplement the air conditioning system, reducing the 
peak demand and creating a much more even level of power consumption. 
Like most utilities, Con Edison charges its customers a rate based on 
peak demand, so the building tenants will save money.
    Water and wastewater are also critical issues impacted by the 
building sector. New York, like Washington, DC, has a combined sewer 
and stormwater system. During significant rains, sewage treatment 
facilities routinely become overwhelmed by the volume of wastewater, 
and discharge partially treated sewage into our waterways. The Bank of 
America Tower, in contrast, will make zero stormwater contribution to 
the municipal system. The building will do this by collecting all 
rainwater that falls on its roofs, about four feet a year, and storing 
it in four tanks staged throughout the building. Water that condenses 
from mechanical equipment and drains from lavatory sinks will also be 
collected, treated, and used to flush toilets and supply the cooling 
towers. Nearly every office building in the United States today uses 
clean, drinking-quality water for these purposes. The building is also 
installing waterless urinals, a technology that alone will save three 
million gallons of water every year. Thanks to these combined 
strategies, the building will consume less than half the potable water 
of a typical office building.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    To the Bank of America, constructing a building that offered 50 
percent water savings, 50 percent energy savings, drastically reduced 
greenhouse gas emissions, and added an iconic element to the New York 
City skyline was of great interest. But what really caught the Bank's 
attention was the quality of the indoor environment, and the potential 
impacts on employee health and productivity. Like other organizations, 
especially those in a knowledge-based industry, the Bank could expect 
to spend around 10 percent of its operating budget on rent and 
utilities, but more than 80 percent on salaries and benefits.\5\ Even 
by rough calculations, a 1 percent increase in productivity--the 
equivalent of 5 minutes a day--would amount to $10 million a year. 
Fewer sick days and overall reduced absenteeism translate into real 
benefits for any organization. For the Bank, enhancing the ability to 
hire and retain the best talent was also extremely important.
---------------------------------------------------------------------------
    \5\ Wilson, Alex. ``Productivity and Green Buildings.'' 
Environmental Building News 13.10, October 2004.
---------------------------------------------------------------------------
    A high-performance work environment addresses natural light, 
artificial lighting, thermal and acoustic comfort, air quality, and 
other design factors. The first priority for the Bank of America Tower 
was to design a daylit environment that would let tenants work by 
natural light as much as possible. Enclosed in highly transparent, 
floor-to-ceiling glass, the workplace also provides a direct connection 
to the outdoors--a complex set of environmental cues whose impacts on 
human well-being are just starting to be understood by psychologists 
and designers, through a field known as biophilia.
    According to the U.S. Environmental Protection Agency, indoor air 
is often more polluted than outside air, and many people spend 90 
percent of their time indoors.\6\ Whereas the typical code-compliant 
building in New York is designed to filter out only 35 percent of 
particulates from the mechanical ventilation system, the Bank of 
America Tower will filter 95 percent of particulates, as well as ozone 
and VOCs. In effect, the air that is exhausted from the building will 
be cleaner than the air coming in. In addition, in virtually all U.S. 
office buildings, air is ducted in through the ceiling and then blown 
downward, where it mixes with all the air in a room, evenly 
distributing dust, germs, and allergens. Instead, the Bank of America 
Tower will have an under-floor air distribution system. Rather than 
forcing conditioned air down from the ceiling, heat from occupants and 
computer equipment will draw fresh air upward, at warmer temperatures 
and lower pressure. Individual air diffusers in the floor will allow 
workers to adjust the flow of as around their desks, minimizing the 
circulation of airborne pathogens and resolving the chief complaint 
among office workers of being too hot or too cold.
---------------------------------------------------------------------------
    \6\ U.S. EPA and U.S. Consumer Product Safety Commission. ``The 
Inside Story: A Guide to Indoor Air Quality.'' April 1995.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Other issues that have been considered include the impacts of 
materials over their entire life-cycle, from cradle to grave. The 
manufacture of cement, for example, results in one ton of 
CO<INF>2</INF> emitted for every ton of cement produced. This is why 
worldwide, the cement industry is responsible for more than 5 percent 
of CO<INF>2</INF> emissions.\7\ To minimize these emissions, 45 percent 
of the cement in the Bank of America Tower is being replaced with blast 
furnace slag, a waste product of the steel industry. By using an 
industrial waste product, we have calculated that this practice will 
prevent 56,250 tons of CO<INF>2</INF> from entering the atmosphere. 
Other materials-related practices include preferred purchasing of 
recycled and locally-produced materials, and recycling of 83 percent of 
construction and demolition debris.
---------------------------------------------------------------------------
    \7\ Lawrence Berkeley National Laboratory. ``Carbon Dioxide 
Emissions from the Global Cement Industry.'' Annual Review of Energy 
and Environment vol. 26, 2001.
---------------------------------------------------------------------------
    Where green building practices represented an additional cost the 
costs and benefits were carefully evaluated by the owner and design 
team. Some ideas were abandoned, and only strategies that represented a 
reasonable payback were pursued. In total, the added cost of green 
technologies and practices, including cogeneration, represents 
approximately 2 percent of the project budget. We have found that 
building at scale was itself an opportunity to reduce the overall cost 
of high performance green measures.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Building in a fundamentally different way is a challenging task. 
Before an industrywide standard was created, practitioners had to 
determine for themselves what practices were harmful or beneficial. As 
a standard developed by a coalition representing all sectors of the 
building industry, the U.S. Green Building Council's LEED system is now 
a common language for measuring and validating green buildings. Every 
LEED certified building must comply with certain requirements, from 
eliminating Environmental Tobacco Smoke to commissioning all 
mechanical, electrical and plumbing equipment to ensure it operates at 
the level at which it was designed to perform. This voluntary standard 
is designed to evolve over time, and results from a consensus-based 
process that is inherently robust and inclusive. Some 600,000 volunteer 
hours have been invested in developing and improving LEED over the past 
10 years (had this time been billed at $200/hr, it would add up to 
$120,000,000). This level of collaboration by architects, engineers, 
builders, and manufacturers is unmatched in any industry, and has 
helped accelerate the current transformation of building markets. The 
opportunities of high performance green buildings are not limited to 
new buildings. Existing buildings are an extremely important part of 
the energy equation--in New York City, it is estimated that by 2030, 85 
percent of the city's energy usage will come from buildings that exist 
today. Existing buildings can be upgraded through retrofits to fighting 
and heating and cooling systems; the resulting energy savings typically 
amount to a 3- to 7-year payback. Retro-commissioning to optimize 
mechanical equipment functioning typically pays for itself within 2 to 
3 years.\8\
---------------------------------------------------------------------------
    \8\ New York City. PlaNYC: A Greener, Greater New York. April, 
2007. (http://www.nyc.gov/html/planyc2030/html/plan/plan.shtml)
---------------------------------------------------------------------------
    Buildings such as the Bank of America Tower prove that it is 
possible to create high-performance green buildings on a very large 
scale. At 2.2 million square feet, large building budgets can afford to 
make creative innovations--but what about the rest of us?
    In fact, buildings at all scales can make a difference in the 
health and well-being of their occupants, and in the quality of 
environment we pass on to future generations. In early 2006, Cook+Fox 
had outgrown its previous office and needed to find new space. Using 
the same standards for beautiful design and high performance, and with 
the help of creative engineers, we worked hard to create a LEED 
Platinum interior space of 12,000 square feet, with a 3600 square foot 
green roof. We moved in June 2006, and are already enjoying terrific 
employee and client satisfaction.
    The United States has always been a high-performance country and an 
incubator for innovation. No landlord or developer wants to own a 
building destined for obsolescence because it locked itself into the 
thinking of the 20th century. As costs decline and benefits accumulate, 
high-performance building will become the only way to design the places 
we live and work. The question now is how to act intelligently and 
effectively to set a new high standard.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Lautenberg. Thank you very much. It looks like that 
building ought to have an opportunity to show off its 
development perhaps even become a tourist attraction, Mr. Fox.
    Mr. Fox. Thank you.
    Senator Lautenberg. It is exciting to hear what can be 
done.
    Next, Mr. Templeton, we welcome you and ask for you to give 
your testimony please.

 STATEMENT OF PETER TEMPLETON, VICE PRESIDENT OF EDUCATION AND 
             RESEARCH, U.S. GREEN BUILDING COUNCIL

    Mr. Templeton. Good morning. My name is Peter Templeton and 
I am vice president of Education and Research for the U.S. 
Green Building Council, a nonprofit coalition of more than 
9,000 private, nonprofit and governmental organizations working 
to transform building design, construction and operations. Our 
vision is that all buildings will achieve sustainability within 
a generation.
    Thank you for providing us the opportunity to talk with you 
about green buildings as an important part of the solution to 
the challenges of energy dependence and climate change, and the 
role of the Council and its LEED green building rating system 
in providing immediate and measurable results.
    Every year, buildings are responsible for 39 percent of 
U.S. CO<INF>2</INF> emissions and 70 percent of U.S. 
electricity consumption. They use 15 trillion gallons of water 
and consume 40 percent of raw materials globally. Buildings are 
more than one third of the challenge and green buildings are 
the solution.
    Green buildings use an average of 36 percent less energy 
than a conventional building, with a corresponding reduction in 
CO<INF>2</INF> emissions. If half of our all new construction 
in the United States were built to that standard, it would be 
the equivalent of taking more than one million cars off the 
road every year.
    Green buildings make sense for both the environment and the 
bottom line. Studies show that on average, LEED buildings cost 
less than 1.5 percent more than conventional construction, and 
the investment is paid back in full within the first year, 
based on energy savings alone.
    But energy savings aren't the only story. Water 
conservation, reductions in construction waste, and effective 
storm water management not only means savings for the building 
owner, but also reduced demands on municipal infrastructures. 
Health and productivity benefits are equally impressive. 
Anecdotal studies demonstrate that people in green buildings 
have 40 percent to 60 percent fewer incidents of colds, flu and 
asthma. Patients in green hospitals are discharged as much as 
2.5 days earlier, and kids in green schools score up to 18 
percent better on test scores.
    LEED-certified buildings have higher asset value than their 
conventional counterparts. Leading institutions, including Bank 
of America, PNC Bank, Goldman Sachs, Citigroup and Wells Fargo 
have all embraced LEED. Insurance companies including AIG and 
Fireman's Fund now offer premium discounts for green buildings.
    Since its introduction 7 years ago, LEED has become the 
nationally accepted benchmark for leadership in green building. 
True to its intent, it gives projects and project teams a 
concrete set of design and performance goals and third party 
certification that validates their achievement.
    Today, 851 buildings have been LEED-certified, and 6,500 
more are in the process, totaling 1.1 billion square feet. 
Every business day, $100 million worth of construction 
registers with LEED. There are LEED projects in every State and 
in 26 countries. Increasingly, building owners and developers 
are choosing to certify their entire portfolios.
    The LEED rating system addresses all building types and the 
full life cycle of commercial buildings, from construction to 
operations and retrofits. In addition, LEED for Homes is 
currently in pilot with 6,000 individual homes and 200 
builders. And LEED for Neighborhood Development opened for 
pilot this year and more than 300 projects have applied.
    LEED takes a holistic approach to sustainability, 
recognizing performance in five key areas: site, water, energy, 
materials and resources, and indoor environmental quality, with 
an additional category to recognize innovation. Four 
progressive levels of LEED certification--certified, silver, 
gold, and platinum--are awarded based on the number of credits 
or points achieved in each category.
    The transformation of the building marketplace can also be 
measured through the people who are part of it. More than 
36,000 professionals have achieved LEED accreditation. More 
than 80,000 attend USGBC-offered educational programs each 
year, and 92,000 are actively engaged in USGBC programs 
nationally or through USGBC's 70 local chapters and affiliates.
    As green buildings are integrated into the mainstream, 
costs come down, aggregate benefits go up, and the whole of the 
market is driven to innovation. It is a case study for how even 
a large and fractured industry, one that represents 14.2 
percent of U.S. GDP, can change itself from the inside out and 
how environmental achievements can be won side by side with 
powerful economic results.
    The public sector has demonstrated vision and leadership in 
the green building movement, both by adopting LEED for their 
own buildings and by creating smart incentives for the private 
sector. Currently, 12 Federal agencies, 22 States and 75 local 
governments have made commitments to use or encourage LEED. In 
2006, GSA submitted a report to Congress concluding that LEED 
is the most credible of five different rating systems 
evaluated. The GSA currently requires its new buildings to 
achieve LEED certification.
    USGBC is committed to our mission because green buildings 
save energy, reduce CO<INF>2</INF> emissions, conserve water, 
improve health, increase productivity, and cost less to operate 
and maintain. Green buildings are becoming highly prized assets 
and a critically important part of the solution to global 
climate change and energy dependence.
    Thank you again for the opportunity to address you today. 
We commend you, Senator Lautenberg, for your leadership and 
look forward to working with this committee to accelerate 
transformation of the built environment to sustainability.
    [The prepared statement of Mr. Templeton follows:]
Statement of Peter Templeton, Vice President of Education and Research, 
                      U.S. Green Building Council
    Thank you for providing the U.S. Green Building Council (USGBC) 
with the opportunity to testify on the benefits of green buildings. We 
commend Chairwoman Boxer and Senator Lautenberg for their leadership in 
this critical area.
    My name is Peter Templeton, and I am USGBC's Vice President of 
Education and Research. I joined USGBC as one of its first staff 
members, and previously served as the Council's Director for LEED and 
International Programs. It is a privilege to talk with you about the 
role of the Council and the LEED (Leadership in Energy and 
Environmental Design) Green Building Rating 
System<SUP>T</SUP><SUP>M</SUP> in addressing the urgent challenge of 
energy efficiency and climate change, and the many far-reaching 
benefits of green building.
                  the impact of the built environment
    Buildings are an essential element of the solution to the energy, 
resource, and climate issues our country is facing.
    Buildings have a lifespan of 50-100 years, throughout which they 
continually consume energy, water, and natural resources, thereby 
generating significant CO<INF>2</INF> emissions. In fact, buildings are 
responsible for 39 percent of U.S. CO<INF>2</INF> emissions per year. 
If the U.S. built half of its new commercial buildings to use 50 
percent less energy, it would save over 6 million metric tons of 
CO<INF>2</INF> annually, for the entire life of the buildings--the 
equivalent of taking more than 1 million cars off the road every year.
    In addition, buildings annually account for 39 percent of U.S. 
primary energy use; 70 percent of U.S. resource consumption; use 12.2 
percent of all potable water, or 15 trillion gallons per year; and 
consume 40 percent of raw materials globally (3 billion tons annually). 
The EPA estimates that 136 million tons of building-related 
construction and demolition debris are generated in the United States 
in a single year. (By way of comparison, the United States creates 
209.7 million tons of municipal solid waste per year.)
    Green buildings are a significant part of the solution to the 
problems of energy dependence and climate change. The average LEED 
certified building uses 32 percent less electricity, 26 percent less 
natural gas and 36 percent less total energy than a conventional 
building. LEED certified buildings in the United States are, in 
aggregate, reducing CO<INF>2</INF> emissions by 150,000 metric tons 
each year, which equates to taking 30,000 passenger cars off the road.
    Of the various strategies that have been proposed, building green 
is one of the most effective for meeting the challenges of energy 
consumption and climate change. The technology to make substantial 
reductions in energy use and CO<INF>2</INF> emissions in buildings 
already exists; modest investments in energy-saving and other climate-
friendly technologies can yield buildings and communities that are 
significantly more environmentally responsible, more profitable, and 
healthier places to live and work.
    By addressing the whole building, from construction materials to 
cleaning supplies, LEED generates opportunities to reduce emissions and 
environmental impact throughout the supply chain and the complete 
building lifecycle. 65 percent of the credits in the LEED Rating System 
reduce the CO<INF>2</INF> footprint of the building. The avenues by 
which LEED mitigates climate change include:
Energy
    LEED awards credits for reducing energy use in buildings through 
such means as installing energy efficient heating and cooling systems; 
using renewable power (e.g., daylight, solar heating, wind energy); 
requiring building commissioning; and purchasing green power.
Water
    On average, a LEED certified building uses 30 percent less water 
than a conventional building, which translates to more than 1 million 
gallons of water saved per year. Reducing the amount of water that 
needs to be conveyed to and treated by municipal wastewater treatment 
facilities also reduces pumping and process energy required by these 
systems. LEED also promotes on-site treatment of storm water to 
minimize the burden on municipal treatment systems.
Materials
    LEED buildings use fewer materials and generate less waste through 
measures such as reusing existing building structures whenever 
possible; developing a construction waste management plan; salvaging 
materials; using materials with recycled content; using local 
materials; and implementing an on-site recycling plan. Reduced 
materials consumption lowers the overall embodied energy of the 
building, which has a direct impact on the building's carbon footprint.
Transit- & Density-Oriented Development
    LEED buildings earn credits for being located near public 
transportation. LEED also rewards car pooling; using hybrid or electric 
cars; and bicycling or walking instead of driving. In addition to the 
emissions produced by the cars themselves, the infrastructure required 
to support vehicle travel increases the consumption of land and non-
renewable resources, alters storm water flow and absorbs heat energy, 
which exacerbates the heat island effect.
            green building trends and market transformation
    Just a few years ago, green building was the domain of a vanguard 
of innovative practitioners. Today, green building is being rapidly 
adopted into the mainstream of building practice in both the 
residential and commercial sectors. McGraw-Hill Construction forecasts 
that the combined annual commercial and residential green building 
markets will total $62 billion by 2010.
    USGBC's LEED Green Building Rating System serves as an essential, 
proven tool for enabling this market transformation. Equally as 
important as recognizing leading practice through third-party 
certification, LEED has given the community of building design, 
construction, and management professionals a concise framework for 
best-practices in high-performance green building design and 
operations.
    To date, there have been 851 LEED-certified buildings worldwide, 
with the majority in the United States. In addition, more than 6,500 
building projects have enrolled with USGBC and are pursuing 
certification. In total, 1.1 billion square feet of construction space 
is being built to meet LEED, and that figure grows daily.
    The growth is manifest in USGBC's green building professional 
accreditation program as well. Since the program's launch in 2002, more 
than 36,000 professionals from all disciplines have become LEED 
Accredited Professionals (LEED APs).
    The LEED Rating System was originally developed for new commercial 
construction projects, and the rapid uptake of the program demonstrated 
that the market needed additional tools to address different building 
types and lifecycle phases. USGBC released rating systems for the 
operations and maintenance and commercial interiors markets in 2006, 
and is currently pilot-testing rating systems for homes and 
neighborhood developments. Already, more than 6,000 homes and 200 
builders are participating in the LEED for Homes pilot test; nearly 200 
homes have been certified to date. LEED for Neighborhood Development, 
which integrates principles of smart growth, urbanism, and green 
building at the neighborhood level, is also being pilot-tested. More 
than 350 projects have enrolled for consideration for the pilot. USGBC 
recently launched LEED for Schools, and is completing rating systems 
for health care facilities, retail, labs, and campuses.
    In addition, USGBC is currently piloting a new LEED program for 
portfolio performance that meets the needs of large owners of 
commercial real estate who are seeking to green their entire real 
estate portfolios. This innovative approach provides cost-effective 
solutions to improve building performance across entire companies and 
organizations. The goal is to facilitate immediate and measurable 
achievements that will contribute to long-term sustainability. The 
portfolio program focuses on the permanent integration of green 
building and operational measures into standard business practice. 
USGBC is working with 26 market leaders as a part of the pilot, 
including American University, Bank of America, California State 
University--Los Angeles, Cushman & Wakefield, Emory University, HSBC, 
N.A., PNC Bank, State of CA--Dept. of General Services. Syracuse 
University, Thomas Properties Group, Transwestern, UC--Merced, UC--
Santa Barbara, University of Florida, USAA Real Estate Company.
            costs and benefits of green building using leed
    Projects enroll in LEED by registering their intent with USGBC and 
paying a fee of $450. Project certification fees are approximately 
$0.03 per square foot, and average about $4,500.
    According to third-party studies published and updated by Capital E 
and by Davis Langdon in the past 24 months, the average total 
additional cost for using LEED on a project (including professional 
fees, materials, and systems) is 1.5 percent or less. That cost is 
typically repaid in the first 10 months of building operation based on 
energy savings alone.
    For example, according to U.S. Banker Magazine, the greening of the 
Bank of America Tower, being constructed in Manhattan, is adding less 
than 2 percent of its projected cost. The project expects to recoup any 
investments through reduced electricity usage and water-saving 
techniques.
    Harvard Business Review cites the DPR building in Sacramento, 
California as having invested 1.4 percent upfront additional costs to 
implement green measures. The project is expected to more than make up 
the investment by generating over $400,000 in operations savings.
                 about the u.s. green building council
    The U.S. Green Building Council (USGBC) is a nonprofit membership 
organization with a vision of sustainable buildings and communities 
within a generation. Our 9,000-member organizations and 92,000 active 
individual volunteers include leading corporations and real estate 
developers, architects, engineers, builders, schools and universities, 
nonprofits, trade associations and government agencies at the Federal, 
State and local levels. Green buildings save energy, reduce 
CO<INF>2</INF> emissions, conserve water, improve health, increase 
productivity, cost less to operate and maintain, and increasingly cost 
no more to build than conventional structures. Because of these 
benefits, they are becoming highly prized assets for companies, 
communities and individuals nationwide.
    As the developer and administrator of the LEED (Leadership in 
Energy and Environmental Design) Green Building Rating 
System<SUP>T</SUP><SUP>M</SUP>, USGBC is a leader in green building and 
green development. Founded in 1993, USGBC is a 501(c) (3) non-profit 
organization, an ANSI-accredited standards developer and a newly active 
participant in ISO technical working groups. The organization is 
governed by a diverse, 31-member Board of Directors that is elected by 
the USGBC membership. Volunteer committees representing users, service 
providers, manufacturers, and other stakeholders steward and develop 
all USGBC programs, including the LEED rating system, through well-
documented consensus processes. Seventy local USGBC Chapters and 
Affiliates throughout the United States provide educational programming 
to local communities.
    A staff of more than 85 professionals administers an extensive 
roster of educational and informational programs that support the LEED 
Rating System in addition to broad-based support of green building. 
USGBC's LEED Professional Accreditation program, workshops, green 
building publications, and the annual Greenbuild conference provide 
green building education for professionals and consumers worldwide.
  about the leed green building rating system<SUP>T</SUP><SUP>M</SUP>
    LEED is the nationally recognized benchmark for the design, 
construction, and operations of high-performance green buildings. Since 
2001, LEED has provided building owners and operators with design and 
measurement tools with the reliability and integrity they need to have 
an immediate, quantifiable impact on their buildings' performance.
    LEED is a voluntary standards and certification program, and was 
developed to promote leadership in the building industry by providing 
an objective, verifiable definition of ``green.'' LEED is a flexible 
tool that can be applied to any building type and any building 
lifecycle phase, including new commercial construction; existing 
building operations and maintenance; interior renovations; speculative 
development; commercial interiors; homes; neighborhoods; schools; 
health care facilities; labs; and retail establishments.
    LEED promotes a whole-building approach to sustainability by 
recognizing performance in five key areas, with an additional category 
to recognize innovation: sustainable site development, water savings, 
energy efficiency, materials and resources and indoor environmental 
quality. Each category includes certain minimum standards 
(``prerequisites'') that all projects must meet, followed by additional 
credits that are earned by incorporating green design and construction 
techniques. Four progressive levels of LEED certification--Certified, 
Silver, Gold and Platinum--are awarded based on the number of credits 
achieved. USGBC provides independent, third-party verification that a 
building meets these high performance standards.
    USGBC member committees develop the LEED Rating System via a robust 
consensus process that enables USGBC to incorporate constantly evolving 
practices and technologies. The key elements of the process, which 
USGBC has refined over more than a decade of leadership experience, 
include a balanced and transparent committee structure; Technical 
Advisory Groups to ensure scientific consistency and rigor; 
opportunities for stakeholder comment and review; member ballot of new 
rating systems and substantive improvements to existing rating systems; 
and a fair and open appeals process. Details about the LEED development 
process are publicly available on the USGBC Web site, www.usgbc.org.
    USGBC is continuing to advance the market with the development of 
LEED Version 3.0, which will harmonize and align LEED rating systems 
and versions, as well as incorporate recent advances in science and 
technology. Congruent with this effort, USGBC is introducing a 
continuous improvement process into LEED, which will create a more 
flexible and adaptive program and will allow USGBC to respond 
seamlessly to the market's evolving needs. Particular focus areas 
include technical and scientific innovations that will improve building 
performance; the applicability of LEED to the marketplace, in order to 
speed market transformation; and the customer experience, to ensure 
that LEED is an effective tool for the people and organizations using 
it.
    The inclusion of Life Cycle Analysis (LCA) is an important step in 
the technical development of LEED. USGBC's Life Cycle Assessment 
working group has developed initial recommendations for incorporating 
Life Cycle Assessment (LCA) of building materials as part of the 
continuous improvement of LEED.
    LCA holistically evaluates the environmental impact of a product 
throughout its life cycle: from the extraction or harvesting of raw 
materials through processing, manufacture, installation, use, and 
ultimate disposal or recycling. USGBC's long term objective is to make 
LCA a credible component of integrated design, thereby ensuring that 
the environmental performance of the whole building takes into account 
the complete building life cycle.
    In 2006, citing the qualities outlined above, the U.S. General 
Services Administration submitted a report to Congress concluding that 
LEED is the ``most credible'' of five different rating systems 
evaluated. The GSA currently requires its new buildings to achieve LEED 
certification.
    Building projects are enrolled in the LEED program by registering 
their intent with USGBC through LEED Online. After the building is 
constructed, the project teams submit proof-of-performance in the form 
of online documentation through LEED Online. LEED Online was developed 
through a partnership with Adobe Systems Inc.
    Expert certification teams review and verify project documentation, 
and award LEED Certified, Silver, Gold, or Platinum certification based 
on the number of credits the project achieves based on a sliding scale.
                        leed and the government
    Governments at all levels have been highly influential in the 
growth of green building, both by requiring LEED for their own 
buildings and by creating incentives for LEED for the private sector. 
From the Department of Energy's support for the initial development of 
LEED, to the Federal Energy Policy Act of 2005, to the many cities and 
states that have adopted LEED, the public sector has demonstrated 
considerable vision and leadership in the transformation of the built 
environment. Currently, 12 Federal agencies, 22 states and 75 local 
governments have made policy commitments to use or encourage LEED.
    The Federal Government has been a particularly strong supporter of 
USGBC and LEED. The U.S. Department of Energy enabled the development 
of LEED with a $500,000 grant in 1997, and has also provided USGBC with 
$130,000 in grants to support the Greenbuild Conference and Expo. Staff 
from the national laboratories, FEMP and other program areas have 
actively shared their expertise to develop and refine LEED. USGBC has 
also collaborated with DOE's Office of Energy Efficiency and Renewable 
Energy with BuildingGreen on the High Performance Buildings Database.
    The U.S. General Services Administration--which is the nation's 
largest landlord--requires its new buildings and major renovation 
projects to achieve LEED certification. As mentioned previously, GSA 
also submitted a report to Congress affirming that LEED ``continues to 
be the most appropriate and credible sustainable building rating system 
available for evaluation of GSA projects.''In particular, GSA noted 
that LEED applies to all GSA project types; that it tracks the 
quantifiable aspects of building performance; that LEED is verified by 
trained professionals and has a well-defined system for incorporating 
updates; and that it is the most widely used rating system in the U.S. 
market.
    Government leadership will continue to be essential to the 
advancement of green building. USGBC supports targeted, viable 
government initiatives that facilitate market transformation, 
including:
    <bullet> The creation of an Office of High-Performance Green 
Buildings within the
    U.S. General Services Administration to coordinate green building 
research, information dissemination and other activities, as provided 
by S. 506, the High-Performance Green Buildings Act of 2007.
    <bullet> The expansion of the Office Director's duties that would 
facilitate: metering, sub-metering and continuous commissioning of 
Federal buildings in order to measure energy use and to ensure that 
building systems are delivering the efficiencies for which they are 
designed; agency reports on their CO<INF>2</INF> reductions using the 
existing energy targets required by Federal law; establishment of green 
building education and training programs for Federal Agency staff in 
order to ensure that the capability exists to achieve agency 
sustainable building goals.
                                research
    In a March 2007 report, USGBC found that research related to high-
performance green building practices and technologies amounts to only 
0.2 percent of all federally funded research. At an average of $193 
million per year from 2002 to 2005, research spending is equal to just 
0.02 percent of the estimated value of annual U.S. building 
construction. These funding levels are not commensurate with the level 
of impact that the built environment has on our nation's economy, 
environment and quality of life. USGBC recommends that total annual 
federal funding equate to 0.1 percent of annual construction value, $1 
billion.
    Furthermore, USGBC has identified the following eight research 
program areas toward which such funding should be applied: Life Cycle 
Assessment of Construction Materials; Building Envelope and HVAC 
Strategies; Lighting Quality; Transportation-Related Impacts of 
Buildings; Performance Metrics and Evaluation; Information Technology 
and Design Process Innovation; Indoor Environmental Quality; and 
Potable Water Use Reduction in Buildings.
                        high performance schools
    In the United States, more than 55 million students and more than 5 
million faculty, staff, and administrators spend their days in school 
buildings. These buildings represent the largest construction sector in 
the U.S.--$80 billion in 20060-2008--which means that greening school 
buildings is a significant opportunity to make a major impact on human, 
environmental, and economic health.
    Most important, children in green schools are healthier and more 
productive. Design features including attention to acoustical and 
visual quality, daylighting, and color have a profound impact on 
children's ability to learn. Green schools also have superior indoor 
air quality and thermal comfort, and expose children to fewer chemicals 
and environmental toxins--which has been linked to lower asthma rates, 
fewer allergies, and reduced sick days.
    Green schools cost less to operate and greatly reduce water and 
energy use, which generates significant financial savings. According to 
a recent study by Capital E, if all new school construction and school 
renovations went green starting today, energy savings alone would total 
$20 billion over the next 10 years. On average, a green school saves 
$100,000 per year--enough to hire two new teachers, buy 500 new 
computers, or purchase 5000 new textbooks. The minimal increase in 
upfront costs--on average less than $3 per square foot--is paid back in 
the first year of operations based on energy savings alone.
    To further this effort, USGBC supports federal authorization and 
funding of K-12 green school demonstration projects in targeted school 
districts throughout the country. Such a directive must also include a 
requirement that the buildings are constructed so that they can serve 
the students as teaching tools on green building design, construction 
and operation.
                               CONCLUSION
    The U.S. Green Building Council is a coalition of leaders from 
every sector of the building industry working to transform the way 
buildings and communities are designed, built, and operated through 
market-based tools. USGBC's LEED (Leadership in Energy and 
Environmental Design) Green Building Rating 
System<SUP>T</SUP><SUP>M</SUP> has become a nationally accepted 
benchmark for high-performance green buildings.
    In just seven years, LEED has had a significant, positive impact on 
the building marketplace. LEED was created to establish a common 
standard of measurement for what constitutes a ``green'' building, and 
provides independent third-party validation of a building's green 
features. LEED provides building owners and operators with the tools 
they need to make an immediate and measurable impact on their 
buildings' health and performance, which is why more than 1.1 billion 
square feet of construction space is being built to LEED standards. The 
impact is growing: Every business day $100 million worth of 
construction registers with LEED; 50 people attend a USGBC training 
course; 20 people become LEED Accredited Professionals and four 
organizations join USGBC as members.
    Green building is essential to environmental, economic, and human 
health. Annually, buildings account for 39 percent of U.S. primary 
energy use; 70 percent of U.S. energy consumption; use 12.2 percent of 
all potable water, or 15 trillion gallons per year; and consume 40 
percent of raw materials globally (3 billion tons annually). The EPA 
estimates that 136 million tons of building-related construction and 
demolition debris is generated in the U.S. in a single year.
    Buildings are an essential part of the solution to mitigating 
climate change and establishing energy independence. The average LEED 
certified building uses 32 percent less electricity, 26 percent less 
natural gas, and 36 percent less total energy than a conventional 
building. LEED certified buildings in the United Staates are in 
aggregate reducing CO<INF>2</INF> emissions by 150,000 metric tons each 
year, which equates to 30,000 passenger cars not driven. Building green 
is a highly effective strategy for meeting the challenges ahead of us. 
The technology to make substantial reductions in energy use and 
CO<INF>2</INF> emissions in buildings already exists, which means that 
modest investments in energy-saving and other climate-friendly 
technologies can yield buildings and communities that are significantly 
more environmentally responsible, more profitable, and healthier places 
to live and work.
    Federal, State, and local governments have been instrumental in the 
growth of green building, both by adopting green building themselves 
and by encouraging it in the private sector. The government's continued 
leadership will be essential to ongoing advancements in this area. 
Significant opportunities exist in increasing Federal funding for green 
building research and in Federal support for the design and 
construction of green schools.
    Thank you again for the opportunity to present the views of the 
U.S. Green Building Council. We look forward to working with you to 
facilitate the transformation of the built environment to 
sustainability.

    Senator Lautenberg. Thank you for some of those startling 
results that we can expect from green building architecture and 
development. Thank you.
    Ms. Barnett.

   STATEMENT OF CLAIRE BARNETT, EXECUTIVE DIRECTOR, HEALTHY 
                        SCHOOLS NETWORK

    Ms. Barnett. Thank you. Good morning. I want to thank the 
committee for the opportunity this morning to speak to you 
about children's environmental health and how our Nation's non-
green and very unhealthy schools actually undermine children's 
health and learning, and what we can do together to promote 
healthy school environments for all children.
    My name is Claire Barnett. I am executive director of the 
Health Schools Network. I also coordinate the National 
Coalition for Healthier Schools.
    Today, 54 million children, because today is a school day, 
are required to be in our Nation's 120,000 public and private 
schools. Yet every single day brings another report of lead in 
school drinking water, schools sinking into landfills, closures 
due to mold infestations, evacuations and emergency room trips 
prompted by chemical spills, schools on toxic sites, chemicals 
in closets literally from the 1840's, and hard-working parents 
told in fact by their family doctors to keep children out of 
unhealthy buildings.
    It is not the right legacy. We know that children are 
uniquely vulnerable to environmental contaminants. They breathe 
more air, drink more fluids, and eat more food per pound of 
body weight than adults do. Their developing systems are more 
vulnerable to environmental toxins and their behaviors, like 
sitting and rolling around on the floor, would put them in 
touch with a different set of pollutants.
    Focusing in on just one set of pollutants commonly found in 
schools, EPA estimates that about half of all our Nation's 
schools have problems with indoor air, which can be 5 to 100 
times more polluted than outdoor air. Air pollution is in fact 
a major contributor to asthma, the leading cause of school 
absenteeism and the leading occupational disease of teachers. 
That means they get it on the job.
    Other health effects from indoor air include respiratory 
problems, difficulty with concentration, rashes, headaches, 
nausea and so forth. Anyone can be affected. But then think of 
the escalating numbers of children with preexisting health and 
learning impairments who are being enrolled in schools every 
day. They may be even more affected.
    One answer is to get back to basics and find an approach 
that deliberately designs out common problems and designs in 
solutions that restore fresh air and sunshine to our schools. 
Benefits include improved achievement, health, attendance, and 
productivity, as well as savings in energy and resource 
conservation. One study found an 87 percent reduction in flu in 
schools that had healthy indoor environments. Another found 67 
percent reduction in sick building syndrome, and a 46 percent 
reduction in upper respiratory problems. One health study found 
a 40 percent reduction in asthma episodes taking place during 
school.
    High performance schools save an average of one third in 
energy costs. These are really astounding numbers. How can 
every child benefit from this? Communities are beginning to 
make very smart choices to build healthy green schools. 
Governors in California and New Jersey have issued executive 
orders. New York City schools just adopted new green high 
performance design standards following the lead of Los Angeles 
Unified School District, as well as statewide initiatives in 
New York, Washington, Massachusetts, and New Hampshire.
    A 2006 National Research Council report called Green 
Schools found that there is in fact a robust scientific 
literature on indoor environments and children's health. I 
would hope the Senators would take note that the Federal 
Education Department has yet to report to all of you on its 
similar 2004 National Priorities Study done pursuant to No 
Child Left Behind.
    The hard sciences show that children in fact do better in 
buildings with specific qualities. The buildings should be dry. 
They should have good indoor air quality. They should be quiet. 
They should have well maintained systems, and they should be 
clean. In fact, basic best practices in prevention such as 
green cleaning and the use of less toxic pest controls are 
highly cost-effective and minimize indoor air pollutant risks 
to all school occupants.
    So if all these things are wonderful, how does any one 
school reach that? How does a volunteer school board member or 
a parent or a classroom teacher or a school head figure out how 
to get a high performance school? What do they do?
    Fortunately, EPA has created a suite of proven school 
environment best practices and has encouraged them locally over 
the last few years with mini-grants, largely to school 
constituency organizations. Today, in our view, the best way to 
rapidly accelerate the numbers of children and communities 
benefiting from healthy and high performing schools is to 
encourage State activity.
    Thus, we support the High Performance Green Buildings Act 
that would establish a Federal Office on Green Buildings, and 
authorize EPA to give grants to qualified State agencies to 
build information and technical assistance systems. Within the 
States, they can promote high performance school design, help 
resolve environmental problems, and EPA alone is uniquely 
qualified with the Federal Centers for Disease Control and 
ATSDR to develop school siting guidelines.
    In summary, there is absolutely no downside. Every child 
and every community should have a healthy, high performance 
school. It is achievable. It is doable.
    Thank you very much.
    [The prepared statement of Ms. Barnett follows:]
   Statement of Claire Barnett, Executive Director, Healthy Schools 
                                Network
                              introduction
    Good morning. Thank you Senators Boxer and Inhofe and the other 
members of the U.S. Senate Environment and Public Works Committee for 
the opportunity to present information on how the poor conditions of 
our school buildings undermine children's health and interfere with 
learning and what we can do to reverse that by building and operating 
healthy and high performance schools.
    Our children and grandchildren--yours and mine--are compelled to be 
in school today. Yet, every day brings new reports of e-coli in school 
water; schools sinking into landfills; closures due to mold 
infestations; evacuations and ER trips prompted by chemical fumes; 
schools on toxic sites; chemicals in closets from the 1840's; parents 
told to keep their children away from unhealthy schools. No parent 
wants that for their child and no one here would visit those threats on 
anyone's else's child. But our society does. And the real shocker is 
that all of those problems are easily avoided through the siting, 
design, construction, and operations of our children's workplaces--
their school buildings.
    School buildings can be designed and maintained in such a way that 
the school facility itself promotes the health and well being of 
children, and promotes and facilitates learning. A Healthy and High 
Performance School dramatically improves the health and learning of 
students while saving money for schools. Too often schools are 
unhealthy places that impede learning, sicken children, teachers and 
staff and waste public resources. The Healthy and High Performance 
School combines design features that promote children's environmental 
health, environmental sustainability, energy efficiency, reduced carbon 
emissions and save money for education and their communities. Science-
based policy and action steps should be taken now to ``design out'' 
common problems and ensure that all our children have environmentally 
healthy schools that are clean and in good repair.
    My name is Claire Barnett. I am the founding Executive Director of 
Healthy Schools Network, Inc., and the Coordinator of the national 
Coalition for Healthier Schools. Healthy Schools Network is a not for 
profit research, information and education, and advocacy organization 
that seeks to ensure that every child will have an environmentally 
healthy school that is clean and in good repair. We have successfully 
shaped and secured new polices, programs, and funds for schools, at 
home in New York, and nationally, while our Clearinghouse has assisted 
parents and schools in every state. The national Coalition provides 
``the platform and the forum'' for healthy school environments, 
endorsed by over 520 organizations and individuals nationwide. My 
testimony is on behalf of Healthy Schools Network and on behalf of 
participants in the Coalition.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                overview
    Children are uniquely vulnerable to environmental contaminants, 
many of which are found in schools. Children proportionately breathe 
more air, drink more fluids, and eat more food than adults. Developing 
systems are more vulnerable to environmental toxins than are fully 
developed adults. Yet health standards for children's exposure to 
indoor environmental contaminants do not exist. An often-cited U.S. 
General Accounting Office report noted that children are compelled by 
law to attend school, yet these school facilities may be unsafe or 
harmful to student health.
    Children's exposure to environmental hazards at school contributes 
to multiple health problems. Poor school indoor air is a major 
contributor to causing and exacerbating asthma, which is well known to 
be at epidemic proportions among school age children. Hazards in the 
school environment are linked to a host of other health problems 
including respiratory problems, poor concentration, rashes, headaches, 
gastrointestinal problems, nervous system disorders, and cancers. 
Nationally, there has been a dramatic rise in the number of children 
afflicted with learning disabilities, attention deficit hyperactivity 
disorder, and autism. These conditions are also linked with 
environmental toxins that may be found in the school environment.
    The poor conditions of America's schools are well documented (and 
endured by millions of children every day), and these deteriorating 
school facilities contribute greatly to harmful environmental 
exposures. As noted above, there is no system of environmental health 
protection for children at school. The school environment is therefore 
unique, and tragically, often fails in providing its most basic 
function, that is providing a healthy and safe learning environment for 
students, teachers and school staff.
          the ``green'' or healthy and high performance school
    One answer to this complex problem is to have schools well designed 
from the start. Communities across the Nation are designing and 
building healthy and high performance (or ``green'') schools that 
create environments that improve learning, promote good health, are 
easier to maintain, and cost less to operate than traditional school 
facilities. Clean air, non-toxic building materials, daylighting and 
full-spectrum lighting, state of the art thermal and acoustical 
engineering and energy efficiency are incorporated into a holistic 
design and comprehensive construction of a school. Demonstrated 
benefits include improved student performance, improved child health, 
improved student attendance and substantial operational savings. High 
performance schools mitigate poor indoor air quality by using materials 
that do not off-gas hazardous chemicals, by utilizing properly designed 
ventilation and air conditioning systems, and focusing on preventative 
maintenance. In addition to superior indoor air quality, healthy and 
high performance schools provide improved student performance due to 
better lighting, acoustics and thermal comfort. A healthy and high 
performance school also saves up to 40 percent of the building's energy 
costs over the lifetime of the facility. In addition, healthy and high 
performance schools can be built at the same cost as conventional 
school facilities. These schools then have an added benefit, saving 
districts substantial funds in decreased energy and maintenance costs 
over the life of the building.
    Across the country, communities are building Healthy and High 
Performance (``green'', sustainable) schools. Governors of both 
California and New Jersey have issued Executive Orders requiring 
schools to be built in accordance with High Performance/Green design 
standards. The New York City Schools, our nation's largest district, 
just adopted a Green Schools Guide blending USGBC's LEED-NC rating 
system with elements of NY-CHPS, the NY Collaborative for High 
Performance Schools design guidelines. Indeed the CHPS design model 
that began in CAL and is adopted by Los Angeles and other large 
districts, has now been adapted for use statewide into Washington, New 
York, Massachusetts, and New Hampshire. These environmentally healthy 
design protocols will impact billions of dollars of school construction 
and major renovations. More states can and should do the same.
    Indeed, school construction and school purchasing is a $730 billion 
a year decentralized market taking place in thousands of local 
communities. Imagine if all 54 million children in our Nation's 120,000 
+ public and private schools had environmentally healthy buildings. 
What a transformation! And a ready market for green-rated product 
producers.
    The health and learning benefits are known to Federal agencies, as 
well as to high-end real estate developers. But what are the real 
benefits to our children?
    A new National Research Council report ``Green Schools: Attributes 
for Health and Learning'' is an excellent review of the hard sciences. 
Among the findings, that 'green' has not been well defined; but that 
there is a ``robust literature'' in the impacts of healthy school 
environments on children, on attendance, on achievement and behavior, 
and on productivity. Bear in mind the virtual epidemic of children with 
asthma, autism, auto-immune disorders, visual, auditory, and other 
learning challenges in school every day, then consider:
    <bullet> Robust body of evidence linking health to IAQ
    <bullet> Some evidence linking IAQ to productivity and learning
    <bullet> There is an association between excessive moisture, 
dampness, molds in buildings and adverse health outcomes
    <bullet> Key factors in IAQ: ventilation rate and effectiveness, 
filter efficiency, temperature and humidity control, control of excess 
moisture, O&M, maintenance
    <bullet> Indoor pollutants and allergens also linked to linked to 
respiratory and asthma symptoms (HSN note--asthma is the leading 
occupational disease of teachers and of custodians)
    <bullet> Reduced pollutant load (through increased ventilation and 
filtration) has been shown to reduce occurrence of building-associated 
symptoms
    <bullet> Work performance decreases with higher room temperatures
    <bullet> Green school lighting focuses on energy, not work 
performance
    <bullet> Control glare when encouraging daylighting
    <bullet> Speaking and listening are key to learning
    <bullet> Sufficient evidence for inverse association between 
excessive noise and student learning
    <bullet> Infection control in densely occupied spaces requires 
cleaning and ventilation
    <bullet> More research will be helpful
    Greening school design provides an extraordinarily cost-effective 
way to enhance student learning, reduce health and operational costs 
and, ultimately, increase school quality and competitiveness.--Gregory 
Katz, Greening America's Schools: Costs and Benefits, October 2006, 
Capital-E.
    BACK TO BASICS. No one should be surprised that children do better 
with a little fresh air and sunshine and a quiet place in which to 
learn.
    The federal agencies like EPA and Education and CDC are aware of 
the impacts of unhealthy schools on children's health, and the National 
Academy of Sciences has produced a tremendous report summarizing the 
peer reviewed literature on the health and learning attributes of 
schools, finding that healthy indoor environments produce benefits.
    What should a parent, teacher, school principal or a local school 
board member or school head do?
    One way to get usable information into their hands quickly and to 
accelerate the number of schools taking action is to encourage states 
to become active. Thus my own organization and the participants in the 
national Coalition are supporting The High Performance Green Buildings 
Act that would establish a federal office and advisory committee on 
green buildings.
    Focusing on Title II, the Healthy and High Performance Schools 
section, we find that it will address many of the issues raised today. 
For example,
    Grants to the states.--An important effort that will protect 
taxpayers and protect children is to make sure that High Performance 
Green buildings, once opened, stay green, and that localities don't 
``lose'' any more school facilities due to poor siting, design, 
construction, operations, or ill-informed maintenance practices. This 
puts a premium on rapidly disseminating U.S. EPA's best practices for 
healthy indoor environments, such as IAQ Tools for Schools and Healthy 
SEAT into states and cities, thence into local schools, allowing State 
agencies to mix and match energy, education, health, and construction 
aid formulas for efficient and effective results.
    Title II authorizes EPA to make grants to qualified State agencies 
to develop comprehensive school environmental quality plans that 
address critical issues in design, construction, siting, maintenance. 
It also would allow states to identify problems and develop and 
disseminate solutions.
    Title II also directs EPA to develop model school siting 
guidelines. Not one parent in the country wants their child to go to 
school on a toxic waste site or in a swamp. Yet report after report has 
found too many schools on such sites. Model guidelines for the siting 
of schools would do much to alleviate the pressure to place schools on 
compromised sites and would help communities reject proposals to place 
hazards adjacent to or near existing schools.
    Title II also directs EPA to issue guidelines for the states to 
develop and implement environmental health programs for schools in 
research and in children's health protection. One feature that is 
critical to protecting children caught in unhealthy conditions is 
encouraging the states to collaborate with the federally designated and 
funded Pediatric Environmental Health Specialty Units in on-site 
environmental investigations of schools. Adults and children often have 
the same exposures in schools; children may outnumber adults in schools 
by ten to one and are more vulnerable to these hazards. Yet adults can 
call upon contracts, unions, OSHA, NIOSH, Labor Departments, 
occupational health clinics and more, while children and families have 
no such system of environmental health services anywhere. In the 
aftermath of September 11th, with local schools contaminated by fumes 
and debris, not one agency stepped in when schools were re-opened 
without appropriate, full remediation. This gap in services has a 
perverse effect, depriving everyone--schools, agencies, parents and 
children--of independent, full and complete assessments of hazards. 
(Schools of Ground Zero: Early Lessons Learned in Children's 
Environmental Health, APHA, Healthy Schools Network, Bartlett and 
Petrarca, 2002).
    As advocates for children's environmental health, we have worked 
diligently to promote Healthy and High Performance school design in the 
federal government, in the State houses, in local districts and with 
parents, teachers and school personnel across the country. There is now 
burgeoning interest across the country in ``green'' building and design 
as an essential part of our commitment to protect our environmental 
heritage.
    Yet the additional benefits for our children, their health, and 
their educational experience from designing in features that are 
health-protective, in contrast to resource efficient, is at least as 
great.
    The Bottom Line.--There is no downside to healthy and high 
performance school design and operations. It improves children's 
health, workers health, improves our environment, saves energy, and 
saves money for education. As schools across the country are built, 
rebuilt and renovated, we owe it to our children, their parents, their 
sponsoring communities and the taxpayers to assure that they are 
designed and built to specifications representing now proven state-of-
the-art healthy and high performance architectural standards.
    A vote for healthy schools is a vote for children, for environment, 
for education, for health, and for communities.
    Thank you.
                                 ______
                                 
            Coalition for Healthier Schools: Issue Statement
     issue background.--improving children's health, learning, the 
                      environment, and communities
    Each day over 53 million school children and 6 million adults--20 
percent of the entire U.S. population--enter our Nation's 120,000 
school buildings to teach and learn. Unfortunately, in too many cases, 
they enter ``unhealthy'' school buildings,'' that undermine learning 
and health. Many school facilities have been poorly maintained and 
thousands of our Nation's schools remain severely overcrowded. Schools 
are often sited next to industrial plants or on abandoned landfills; 
new schools are built beyond safe walking or biking distance for 
students. In a recent five-state survey, more than 1,100 public schools 
were built with in a half-mile of a toxic waste site. Polluted indoor 
air, toxic chemical and pesticide use, growing molds, lead in paint and 
drinking water, and asbestos are also factors that impact the health of 
our nation's students and school staff. These problems contribute to 
absenteeism, student medication use, learning difficulties, sick 
building syndrome, staff turnover, and greater liability for school 
districts. The U.S. Energy Dept. found schools could save billions of 
dollars by installing energy efficient heating systems.
    32 million children at elevated risk of health problems caused by 
decayed schools (Lessons Learned, 2006). According to U.S. EPA, 
``Studies show that one-half of our nation's schools have problems 
linked to indoor air quality. Students, teachers and staff are at 
greater risk because of the hours spent in school facilities and 
because children are especially susceptible to pollutants.'' Schools 
are also more densely occupied and more intensively used than offices, 
which contribute to the overall problem. Asthma is the leading cause of 
school absenteeism and the leading occupational disease among teachers 
and custodians. The increase in asthma problems is particularly acute 
in urban areas with large numbers of African-American, Hispanic 
American and other minority students. Children with preexisting health, 
learning, or other special needs may be at greater risk.
    Federal agencies, states, communities, and education officials must 
improve school environmental quality. Federal agencies are well aware 
that ``high performance school'' design and construction and 
environmental management of facilities can produce healthier learning 
environments. Key policy and program reforms include siting, design and 
construction, and environmental management on issues such as ``green 
cleaning'' and least-toxic pest control, as well as preventive repairs 
that preserve neighborhood infrastructure and center communities on 
children's needs.
    At a time when this Nation is committed to raising the academic 
performance of all children, it is essential that the federal agencies 
provide the knowledge, leadership and technical assistance that states, 
cities, and schools need to ensure that every child, every school 
employee, and every community has environmentally safe and healthy 
schools that are clean and in good repair.
    Statement Sponsors: American Association on Intellectual and 
Developmental Disabilities, American Federation of State, County, and 
Municipal Employees, Alliance for Healthy Homes, American Lung 
Association, American Public Health Association, Beyond Pesticides, 
Children's Environmental Health Network, Connecticut Foundation for 
Environmentally Safe Schools, Environmental Defense, Funders Forum on 
Environment and Education, Healthy Child Healthy World (CHEC), Healthy 
Kids: The Key to Basics (MA), Healthy Schools Network, Improving Kids 
Environment (IN), Institute for Children's Environmental Health, 
Learning Disabilities Association of America, Marin Golden Gate 
Learning Disabilities Association (CA), Massachusetts Healthy Schools 
Network, National Center for Environmental Health Strategies, National 
Education Association, National Education Association/Health 
Information Network, National PTA, Natural Resources Defense Council, 
New Jersey Work Environment Council, New Jersey Environmental 
Federation, Oregon Environmental Council, Physicians for Social 
Responsibility, Public Education Network, 21st Century Schools Fund, 
West Harlem Environmental Action, League of Conservation Voters, 
National Clearinghouse for Educational Facilities, National Association 
of Pediatric Nurse Practitioners, Apollo Alliance, and 500 more groups 
and individuals, as of April 2007.
                               references
    Federal Executive Order 13045--Protection of Children From 
Environmental Health Risks and Safety Risks, Federal Register: April 
23, 1997 (Volume 62, Number 78), http://www.epa.gov/fedrgstr/eo/
eo13045.htm. Renewed 4/18/2003 (http://www.whitehouse.gov/news/
releases/2003/04/20030418-10.html)
    U.S. Environmental Protection Agency, www.epa.gov/schools for an 
extensive listing of EPA programs, also http://www.epa.gov/iaq/
schooldesign/introduction.html. Also see EPA's ``Healthy School 
Environments Assessment Tool'' (SEAT) at www.epa.gov/schools for 
assessing the conditions and practices of school buildings and 
identifying priority actions based on federal laws and best practices.
    Building Healthy, High Performance Schools: A review of Selected 
State and Local Initiatives, Tobie Bernstein, Environmental Law 
Institute, 2003 (http://www.elistore.org/reports--
details.asp?ID=10925&topic=Indoor--Environments)
    The Collaborative for High Performance Schools, (http://
www.chps.net/). CHPS Best Practices Manual: Volumes I-IV. http://
www.chps.net/manual/index.htm#v4, Collaborative for High Performance 
Schools, CA, 2004. TO ORDER: Collaborative for High Performance 
Schools, c/o Eley Associates, 142 Minna St., San Francisco, CA 94105. 
Tel: (877) 642-2477.
    The Green Book, 2nd ed., American Academy of Pediatrics, Committee 
on Environmental Health, 2003, see http://www.aap.org/visit/cmte16.htm
    Science-Based Recommendations to Prevent or Reduce Potential 
Exposure to Biological, Chemical, and Physical Agents in Schools, Derek 
G. Shendell, et al., Journal of School Health--December 2004, Vol. 74, 
No. 10, a review of peer-reviewed publications and proceedings.
    ``Healthy and High Performance Schools Act'', Sec. 5414 ff, No 
Child Left Behind, defines healthy and high performance school and 
authorizes a federal grant program to the states to implement local 
information and technical assistance program; mandates Study of 
National Significance on Unhealthy School Buildings.
    A Summary of Scientific Findings on Adverse Effects on Indoor 
Environments on Student's Health, Academic Performance and Attendance, 
2004, U.S. Department of Education, Office of the Under Secretary, Doc 
#2004-06, Washington, DDDC, 2004., prepared for Congress pursuant to 
HHPS/NCLB.
    Healthier Schools: A Review of State Policies for Improving Indoor 
Air Quality, Tobie Bernstein, Environmental Law Institute, Jan. 2002 
(http://www.elistore.org/reports--
detail.asp?ID=56&topic=Environmental--Health
    Do Indoor Pollutants and Thermal Conditions In Schools Influence 
Student Performance? A Critical review of the Literature, M.J. Mendell, 
G.A. Heath, Indoor Air, Volume 15 Issue 1 Page 27-January 2005
    ``Learning the Hard Way'', Jn 2002 cover story, Environmental 
Health Perspectives, Journal of the Natl. Inst. of Env. Health 
Sciences, online at http://www.healthyschools.org/
    Schools of Ground Zero: Early Lessons Learned in Children's 
Environmental Health, Sarah Bartlett and John Petrarca, American Public 
Health Association and Healthy Schools Network, 2002, 300 pp. Order 
through Healthy Schools Network or APHA.
    Creating Safe Learning Zones: Invisible Threats, Visible Actions, 
Center for Health, Environment and Justice, 2001, for sample policies 
and GIS maps on schools built on or near Superfund and other hazardous 
site. http://www.childproofing.org/cslzindex.html
    Do School Facilities Affect Academic Outcomes?, Mark Schneider, 
National Clearinghouse for Educational Facilities, 2002, at http://
www.edfacilities.org or call 888-552-0624.
    Lessons Learned, 32,000,000 Children: Victims of a Public Health 
Crisis, Healthy Schools Network, Inc., April 2006. http://
healthyschools.org/clearinghouse.html
    New York State School Facilities and Student Health, Achievement, 
and Attendance: A Data Analysis Report, Healthy Schools Network, Inc., 
2005. http://healthyschools.org/clearinghouse.html
    Green Schools: Attributes for Health and Learning, National 
Research Council of the National Academy of Science, 2006. http://
books.nap.edu/catalog.php?record--id=11756
    Greening America's Schools: Costs and Benefits, Gregory Katz, 
Capital E, October 2006. http://www.cap-e.com/ewebeditpro/items/
O59F9819.pdf
    Who's Sick at School: Linking Poor School Conditions and Health 
Disparities for Boston's Children, MassCOSH, March 2006. http://
www.masscosh.org/SchoolsReport.pdf

    Senator Lautenberg. Thank you very much, Ms. Barnett.
    Shocking results on the plus side can result from these 
changes, from these improvements. If we want to look at this in 
an appropriate way, we look at our children and see what we 
want for them. Pretty simple.
    Mr. Tonjes.

STATEMENT OF RAY TONJES, CHAIRMAN, GREEN BUILDING SUBCOMMITTEE, 
             NATIONAL ASSOCIATION OF HOME BUILDERS

    Mr. Tonjes. Thank you, Mr. Chairman. I am Ray Tonjes, and I 
am a custom builder from Austin, TX, and I am chairman of the 
Green Building Subcommittee of the National Association of Home 
Builders.
    NAHB represents over 235,000 members who employ millions of 
individuals in the homebuilding, remodeling, multi-family, and 
light commercial construction industry. I am here to talk about 
the success that I and my fellow builders have had in 
cultivating the progressive green building program that 
produces sustainable energy and resource-efficient homes 
throughout the Country.
    NAHB members build more than 80 percent of all new homes, 
and by the end of 2007, more than half of NAHB members will be 
incorporating green building practices into the development, 
design and construction of these new homes.
    Because housing represents 16 percent of our Nation's gross 
domestic product, homebuilders have the potential to profoundly 
affect sustainability, conserve precious natural resources, and 
preserve our environment.
    NAHB members are true leaders in the green building 
movement. Acting with the help of over 850 State and local 
homebuilders' associations, NAHB members have been implementing 
green building practices since the term ``green building'' was 
coined in 1991. According to McGraw Hill, about 10 percent of 
the homes built in 2010 will be green homes, which is a major 
jump from just 2 percent in 2006.
    Being green means more than a tankless water heater or a 
little extra insulation in the attic. Green building is how a 
home exists on the land, conserves resources, and provides a 
healthy indoor environment for its residents. Green building 
means making an intentional decision to positively impact 
energy efficiency, preserve resources, and to reduce and 
recycle waste throughout the entire design and construction 
process and for the life of the home.
    How do we get there? In 2005, NAHB, along with more than 60 
stakeholders, including environmentalists, builders, product 
manufacturers, and designers, agreed upon a number of criteria 
that can guide builders on how to construct a green home. These 
model green homebuilding guidelines were developed for use by 
any builder. The guidelines are free and NAHB does not profit 
in any way from their use.
    To date, 18 State and local homebuilder associations have 
adopted programs based on the guidelines, and dozens more are 
in development. Some of these have already been endorsed by 
State and local governments. The net effect is thousands of 
homes are being built to these green criteria.
    The six guiding principles of the guidelines, which are 
outlined in my written testimony, include lot development, 
energy and resource efficiency, water conservation, indoor 
environmental quality, and homeowner education, which includes 
operation and maintenance.
    NAHB has proactively adopted a policy of promoting green 
building as a means of reducing greenhouse gas emissions. NAHB 
has partnered with the International Code Council, the Nation's 
preeminent authority for building codes, to produce and develop 
the first and only national green building standard for 
residential construction. The standard will be accredited by 
the American National Standards Institute. It will be an 
industry-wide, consensus-based, and certifiable benchmark for 
all residential construction types. This includes single 
family, multi-family, remodeling, and land development.
    The committee that is developing the standard includes 
members from the U.S. EPA, the Department of Energy, the U.S. 
Navy, many State and local housing agencies, product 
manufacturers, and nongovernmental green building 
organizations, including those represented here today.
    Finally, the committee includes small custom builders like 
myself and remodelers, and one of the Nation's largest 
production builders. Both members and the general public have 
the opportunity to influence the development of the standard. 
Once published, the standard will be periodically reviewed and 
revised to ensure its rigor and integrity.
    Many viable green building programs already exist and more 
are likely to come as we address the challenge of climate 
change. Healthy competition in the burgeoning market will only 
continue to drive its growth and innovation, as well as keep 
costs down for home buyers so that green homes are affordable 
and people can easily make the green choice.
    NAHB urges Congress to preserve competition in the emerging 
green building arena. NAHB's next step is the development of a 
national green building program that will not only support the 
standards I mentioned earlier, but will also help State and 
local governments to implement green building practices. The 
housing industry's commitment to increasing energy and resource 
efficiency in home construction is demonstrated by the 
development of the national green building standard and a 
national program based on that standard.
    On behalf of the Nation's home builders, I thank you for 
the opportunity to speak here today about our industry's 
advances in green building and our ongoing efforts to protect 
and preserve our environment.
    I would be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Tonjes follows:]
    Statement of Ray Tonjes, Chairman, Green Building Subcommittee, 
                 National Association of Home Builders
    Madame Chair, Ranking Member Inhofe, and distinguished members of 
the committee, thank you for the opportunity to testify on behalf of 
the National Association of Home Builders (NAHB). My name is Ray Tonjes 
and I am the Chairman of the Green Building Subcommittee at NAHB, 
representing 235,000 thousand corporate members that, in turn, employ 
millions of individuals in the home building, remodeling, multifamily 
construction, property management, subcontracting, design, housing 
finance, building product manufacturing, and light commercial 
construction industries. As a custom home builder, I appreciate the 
opportunity to talk about the successes that I, and my fellow builders, 
have made in cultivating a progressive green building program that is 
producing sustainable energy- and resource-efficient homes throughout 
the United States.
                              introduction
    NAHB members currently build about 80 percent of all new units in 
the United States and, by the end of 2007, more than half of NAHB's 
members will be incorporating green practices into the development, 
design, and construction of these new units. This is a significant and 
important fact because housing comprises 16 percent of the U.S. GDP. 
The impact of housing on the economy of the United States is 
substantial, and by encouraging growth in green building, our nation's 
home builders have the potential to profoundly affect sustainability 
and conserve precious natural resources and our environment.
    NAHB members are leaders in the green building movement and were 
active on this effort long before the recent media interest in climate 
change and global warming. NAHB has been working on green building 
alongside its 800+ State and local Home Builder Associations (HBAs) for 
nearly a decade, which is longer than many other green building 
advocates have even existed. In fact, NAHB will be hosting its 10th 
Annual National Green Building Conference in New Orleans next year and 
has consistently been ahead of the curve in promoting and developing 
energy-efficient and environmentally-friendly construction techniques 
for the mainstream home builder.
    Based on a survey of NAHB home builders conducted last year by 
McGrawHill Construction, about 10 percent of the homes built in 2010 
are expected to be green, containing at least three of five green 
building elements. Being green means much more than a tankless water 
heater and a little extra insulation in the attic, it is a holistic 
approach to how the home exists on the land with the least impact, how 
conservatively it uses resources; and how it provides healthy, safe, 
and decent shelter to the resident. Simply put, building greener is 
building better. It means making intentional decisions that positively 
impact energy efficiency, resource conservation and indoor 
environmental quality throughout the entire design and construction 
process. Green means doing the right thing for the builder, the 
homeowner, and, most importantly, the environment.
    The recent strength and growth of green building is due in large 
part to its voluntary nature, which provides builders and developers 
the flexibility that is essential for incorporating the principles of 
sustainable design in innovative ways to construct a home that is both 
environmentally sound and affordable to homebuyers. Green home building 
will continue to be an important component and because of the current 
flexibility in green building options, builders will be able to 
successfully adjust to the shifting market demand for greener homes.
                    national green building standard
    Working with more than 60 industry stakeholders, in January 2005 
NAHB completed the Model Green Home Building Guidelines (the 
Guidelines). The Guidelines are a product of a year-long, consensus-
based process involving input from architects and designers, 
environmentalists, builders, research consortia, and building product 
manufacturers. The shining hallmark of the Guidelines is that every 
aspect of the construction industry was involved in forming these 
criteria so that every builder, large and small, could easily adopt the 
practices. The Guidelines truly are designed for every builder, and 
they address 100 percent of America's housing stock. Most importantly, 
NAHB makes absolutely no profit from the promulgation of the 
Guidelines; they are entirely free of charge. I am proud to report that 
all of the benefits reaped from building a green home with the 
Guidelines go directly to the homeowner and, ultimately, to our 
environment.
    The voluntary Guidelines contain six guiding principles that offer 
a variety of distinct line items from which builders (and operating 
HBAs) can choose, allowing them to be customized to reflect local 
geographic and climate conditions. These principles include the 
following:
    <bullet> Lot Design, Preparation, and Development.--Resource-
efficient site design and development practices help reduce the 
environmental impacts and improve the energy performance of new homes. 
Siting that saves trees, incorporates onsite storm water retention/
infiltration features, and orients the home to maximize passive solar 
heating and cooling are essential elements used in planning a green 
home.
    <bullet> Resource Efficiency.--Most successful green homes start at 
the design phase, which includes the selection of materials to be used 
in its construction. For example, engineered-wood products can help 
optimize material resources because more than 50 percent of the log is 
converted into structural lumber rather than conventional dimensional 
lumber.
    Resource efficiency also means reducing job-site waste by 
developing construction waste management plans. These waste management 
plans, which includes recycling, can reduce normal average construction 
waste by at least two-thirds, thus reducing the burden on landfill 
space. Lastly, performing life-cycle analysis (LCA) on building 
materials will help to determine a more accurate impact on the 
environment, since materials can be renewable, yet can be very energy-
intensive when considering their transport to job-sites, for example. 
The LCA process involves a ``cradle to grade'' philosophy and covers 
how the material is recovered, the product manufacturing process, the 
home building process, the maintenance and operation, the home 
demolition, and product reuse, recycling, and disposal. All of these 
facets combine to help builders choose the most resource-efficient 
products that have the least impact on the environment throughout the 
life of the home.
    <bullet> Energy Efficiency.--Energy consumption has profound 
impacts on our environment, from the mining of fossil fuels to the 
emissions of burning non-renewable energy sources. The impact of a 
home's energy use over time is a significant factor in how that home 
will impact the environment. Therefore, energy efficiency is heavily 
weighted in any green building program. The greatest results in energy 
efficiency come from a ``whole systems'' approach. Energy performance 
does not end with just increasing insulation, using renewable energy, 
or upgrading the HVAC equipment. Green homes must have a balance 
between these features and careful window placement, building envelope 
air sealing, duct sealing, and proper placement of air and vapor 
barriers from the foundation up to the attic. Once these features are 
incorporated into the green home, then it will truly be high-
performing, energy efficient, less-expensive to operate, and more 
comfortable to live in than a conventionally-constructed home.
    <bullet> Water Conservation.--Implementing water conservation 
measures can reduce mean per capita water usage from 64 gallons per day 
to 45 gallons per day. Thus, green homes are especially welcome in 
areas affected by long- and short-term water supply issues. Green homes 
conserve water both inside and outside the home with more efficient 
water delivery systems, native and drought-resistant landscaping, and 
careful treatment of storm water and wastewater in the construction 
process. In fact, some communities gain additional benefits from 
builders using native species in landscaping and filtering and removing 
contaminants from storm water and wastewater in a green home.
    <bullet> Indoor Environmental Quality.--Healthy indoor environments 
are another hallmark of green building. Following energy efficiency, 
the quality of a home's indoor air is often recognized as the most 
important feature of a green home. Increases in reported allergies and 
respiratory issues, and the use of chemicals that can emit gas from 
building materials have contributed to an increased awareness of the 
air that is breathed inside the home. Although no official 
authoritative definition exists of what healthy indoor air means, there 
are measures that green home builders can take to mitigate the effects 
of potential contaminants by controlling the source, diluting the 
source, or capturing some of the source through filtration.
    <bullet> Operation, Maintenance, and Homeowner Education.--
Inadequate or improper maintenance of a green home can defeat the 
designer and builder's best efforts to create a resource-efficient 
home. Failing to change air filters regularly, or neglecting to use 
kitchen and bath exhaust fans in moist air, are very common mistakes 
most homeowners make. Also, many homeowners are unaware of the impact 
of using common substances in and around the home, such as pesticides, 
fertilizers, and even common cleaning agents. By giving homeowners a 
manual that explains proper operation and maintenance procedures, 
includes information on alternatives to toxic cleaning substances and 
lawn and garden chemicals, and directs them to water-saving practices, 
a green home builder can help assure that the home functions as 
carefully as it was constructed, in an environmentally-responsible 
manner.
    Since its publication, the Guidelines have been successfully 
implemented by 18 State and local HBAs around the country, with the 
demand growing each day for new programs. Working off of this 
overwhelming success, NAHB agreed to collaborate with the International 
Code Council (ICC) in February 2007 to establish the first and only 
national residential green building standard that will be certified and 
accredited by the American National Standards Institute (ANSI). Based 
on the NAHB Guidelines, this standard will serve as the only consensus-
based industry standard for residential green construction in the 
United States.
    As a national standard, ANSI requires consensus-based decision-
making, opportunity for public comment, and other processes to help 
guarantee that the standard is acceptable to all members of the home 
building industry, as well as to those who regulate them. This process 
involves full participation from interested stakeholders who volunteer 
to sit on a Consensus Committee, and who provide advice and counsel on 
how to build a green home, how to verify and certify its integrity, and 
how to continuously update the standard to ensure improvement and 
rigor. A membership roster of the official Consensus Committee of the 
National Green Building Standard is attached to my statement.
    You will note on this roster the membership of the U.S. Green 
Building Council, the U.S. Envrionmental Protection Agency, the U.S. 
Department of Energy, numerous city and State housing officials, 
product manufacturers, insulation manufacturers, architects, and some 
of the Nation's largest production home builders. All members provide 
their insight and input into this very open and transparent process. In 
fact, prior to the inaugural meeting of the Consensus Committee, on 
April 19-20, 2007, the NAHB Research Center, an ANSI-accredited 
research organization that is serving as the Secretariat for the 
standard, had received over 250 individual comments to the first draft.
    A few of the benchmarks that could go into the Nation green 
building standard upon committee agreement include:
    <bullet> Demonstration that the home's heating and cooling units 
are correctly sized, according to the Air Conditioning Contractor's of 
America's Manual J, or another reference guide, to achieve minimum 
energy efficiencies
    <bullet> Achievement of minimum requirements set by the 
International Code Council's International Energy Conservation Code 
(IECC)
    <bullet> Requirement for third-party review to verify design and 
compliance with an established energy efficiency program, such as 
Energy Star
    <bullet> Existence of many options for builders to achieve targets, 
by scoring points, in order to reach various compliance levels, i.e., 
embedded flexibility
    The consensus process is advanced by the activity of ``Task 
Groups'' that serve the purpose of providing expertise on the specific 
topical areas for the standard. There are currently seven task groups: 
Administration and Points, Site Development and Global Impact, Resource 
Efficiency and Owner Education, Water Efficiency and Indoor Air 
Quality, Energy Efficiency, Multifamily, and Remodeling. These groups 
each review drafts of the standard and provide proposed changes in 
their specific areas that are then presented to the full Consensus 
Committee for consideration. The Consensus Committee has already held 
its first meeting in April 2007 and is scheduled to meet again in July 
in Washington, D.C.
    Normally, standards development processes can take one to two years 
to complete, given the extensive public input that requires full 
consideration. However, the need to develop appropriate strategies to 
address growing environmental challenges like climate change has 
motivated our industry to commit to a fast-tracked standards process 
because we believe that it simply cannot be put off any longer. Because 
the Guidelines were developed in concert with such a large and diverse 
group of stakeholders, we can accelerate this process while still 
allowing time for required public comment.
    Encompassing single- and multi-family construction, remodeling, and 
land development, the National Green Building Standard is expected to 
be completed in early 2008, an indication of the level of urgency with 
which the industry is approaching and addressing the issue. I am proud 
of the continued effort of the home building community to create the 
first comprehensive residential green construction standard that not 
only informs builders on how to build green, but also educates 
homeowners on how to operate their home in an energy- and resource-
efficient manner. Ultimately, the goal is to develop a standard that is 
flexible enough to adjust to the various resource and energy concerns 
in the varying climate zones around the country, while at the same time 
encouraging continued innovation in green technology that is already 
dramatically shifting the market. Green building should continue to 
exist in its most flexible form.
                    national green building program
    In order to address the most pressing environmental challenge of 
our time, climate change, the Board of Directors of the NAHB 
established policy to proactively seek to contribute to efforts to 
reduce greenhouse gas emissions by establishing a national green 
building program. With this charge, NAHB members have stepped up their 
national campaign to inform the public about the innumerable benefits 
of green building and sustainability in housing design. In this 
program, there is a substantial effort to market the green building 
standard as an effective alternative, and to monitor State and local 
legislative and regulatory activity to ensure builders retain the right 
to choose from the myriad of green building options and are not 
restricted to the sole use of one branded product over another. Viable 
green alternatives exist in the market today in both residential and 
commercial construction.
    NAHB is poised to make a substantial dollar investment in a 
National Green Building Program. The NAHB National Green Building 
Program will help push the green building envelope and encourage 
innovation in green construction for the millions of homes that are 
waiting to be built. As one architect recently stated at the NAHB 
National Green Building Conference in St. Louis, Missouri, by mandating 
one green building program to the exclusion of others, you create a 
``race to the bottom.'' At a time when the challenge of climate change 
is moving people to live, work, and function in a more environmentally 
responsible way, we need to have options to force green building 
technology to its limit. NAHB's National Green Building Program will 
provide those options for all builders and, most importantly, will seek 
to inform current homeowners about how they can improve existing homes 
with green remodeling, making home occupation and maintenance just as 
efficient as new home construction.
                        recommendations/outlook
    As the committee reviews options for passing green building 
legislation that will help guide the federal government towards 
sustainability in design and construction principles, it is important 
to consider the incredible momentum and green building success stories 
that are already moving the market forward. The daunting task of 
reducing greenhouse gas emissions from buildings and homes is already 
beginning and the stewardship of the Congress in this matter will be 
increasingly important. Congress has the great opportunity to create 
avenues for extensive innovation in green construction by keeping the 
market fluid, free of mandates, and striving towards the greatest 
energy- and resource-efficient buildings available.
    The green building movement is shaping our industry in a tremendous 
way. To date, there have been more than 2,000 homes certified to 
Guidelines-based programs with thousands more in the pipeline. The 
healthy competition in the market is driving demand. Within three 
years, almost 10 percent of this nation's new homes will be green. As 
consumer awareness and education increases, and as green supplies and 
materials become easier to obtain, more and more builders will take 
advantage of educational opportunities offered by NAHB and other 
organizations.
    Above all, NAHB cautions the Committee and Congress against 
mandating only one green rating system to the exclusion of others. 
Green practices and sustainability are incredibly important in the 
battle against climate change, and we feel that builders need to have 
access to as many options as possible. Many green building alternatives 
already exist, and with awareness increasing every day about the 
benefits of green homes, additional programs are likely to be added in 
the marketplace.
                               conclusion
    NAHB members have shown that green building is both proactive and 
profitable, primarily because current programs have been allowed to 
thrive and shift and mold to meet specific conservation needs in a 
geographic area. Our industry's commitment to developing a rigorous 
standard, with valuable input from diverse disciplines, will produce 
certifiable benchmarks for measuring a home's energy and resource 
efficiency for years to come. The standard will also include a green 
remodeling component to address the serious needs of upgrading existing 
homes, many of which were not built with energy or resource efficiency 
in mind. NAHB believes that there must be a viable path to elevate the 
120 million existing homes into greater environmental and energy 
efficient operation. The National Green Building Standard can provide 
that pathway.
    NAHB supports and encourages energy efficiency and green building. 
We support a national green building program that is flexible and 
market-driven, encourages continued growth in green construction that 
protects options for builders in all markets, as well as preserves, 
protects, and promotes the health of our environment. Home builders are 
having great success with the green building movement, in which they 
have been engaged for years. The commitment of the home building 
industry to energy and resource efficiency in construction is evidenced 
by our Guidelines, the development of the first and only residential 
green building standard, and our national campaign. Thank you for the 
opportunity to present the views of the National Association of Home 
Builders. I look forward to any questions you may have for me.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Response by Ray Tonjes to an Additional Question from Senator Sanders
    Question. In your testimonies you talk about the ``green building'' 
work being done by the National Association of Home Builders through 
the Green Building Initiative. You fail, however, to give details about 
what this means, such as, how much energy has been saved, how much 
water has been saved, what are the reductions in CO<INF>2</INF> 
emissions, how much have you improved indoor air quality, etc. What 
concrete changes can you point to from your ``green building'' 
practices?
    Response. NAHB members construct more than 80 percent of all new 
homes in the United States and have been incorporating green and 
sustainable design practices into residential construction for more 
than 10 years. Assisted by more than 800 State and local associations, 
NAHB has been working to grow local green building programs throughout 
the United States. To date, more than 100,000 green homes have been 
built and more than 50 State and local voluntary green building 
programs have been initiated, twenty of which are based on NAHB's Model 
Green Home Building Guidelines.
    NAHB does not operate its green building programs ``through'' the 
Green Building Initiative (GBI), as indicated above. 0131 is a separate 
entity that has promoted the Model Green Home Budding Guidelines on 
behalf of NABS. NAHB's programs and leadership in green building 
promotion and education are independent of GBI.
    Energy Savings.--Green homes are consistently above code, 
performing at energy savings criteria based on the following tiered-
achievement levels:
    <bullet> Bronze Level = 15 percent energy savings above the 2003 
International Energy Conservation Code (IECC)
    <bullet> Silver Level = 30 percent energy savings above the 2003 
IECC
    <bullet> Gold Level = 40 percent energy savings above the 2003 IECC
    At the very least, green homes are achieving 15 percent above the 
most aggressive energy code available at the time of development of the 
Model Green Home Building Guidelines. Homes at the bronze level use 
substantially less energy for heating, cooling, and water heating, 
delivering $200 to $400 in annual savings. Most likely, the energy and 
dollar savings are much more significant because many are being built 
at the higher Silver and Gold level.
    Water Savings.--As identified in the criteria of the Model Green 
home Building Guidelines, implementing water conservation measures can 
save as much as 19 gallons of water per day for each green home, as 
compared to an average home. These savings come from using more 
efficient delivery systems, incorporating native and drought-resistant 
landscaping, and careful treatment of stormwater and wastewater in the 
construction process.
    Indoor Air Quality.--Since there is no ``official'' authoritative 
definition by which ``healthy'' indoor air can be measured, it in 
difficult to quantify air quality improvements in green homes. However, 
builders do use specific measures in green home construction that can 
purposefully mitigate the effects of potential indoor air contaminants 
by controlling, diluting, or capturing source pollution inside the 
home.
    Carbon Dioxide Emissions.--While a mechanism to measure carbon 
reductions does not currently exist in the framework of the Model Green 
Home Building Guidelines, NAHB is working with the other stakeholders 
to develop a carbon calculator that will be part of the National Green 
Building Standard, and will also be incorporated into NAHB's National 
Green Building Program. This will give builders and consumers clear and 
quantifiable data regarding CO<INF>2</INF> emissions reductions and 
will be able to verify actual reductions in CO<INF>2</INF> emissions as 
compared to an average home.
  Responses by Ray Tonjes to Additional Questions from Senator Inhofe
    Question 1. What are the potential benefits to both contractors and 
consumers of using the Model Green Home Building Guidelines in the 
construction of new homes, and how do these guidelines compare to the 
LEED system?
    The first and most significant benefit to contractors using the 
Model Green Home Building Guidelines is the flexibility embodied in the 
criteria. Because there are no rigid limits to efficiency targets, 
builders and contractors can push the envelope and modify various part 
of the home's construction and performance to achieve sustainability. 
There are many ways, using a number of different products and 
practices, to achieve the green targets in the Guidelines. The LEED for 
Home (LEED-H) program is a one-size-fits-all approach with numerous 
mandatory measures, limiting flexibility and increasing costs to 
homebuyers. The Guidelines are designed to assist the mainstream home 
builder, whereas LEED-H is developed for ``the top 25 percent of homes 
with best practice environmental features,'' according to the U.S. 
Green Building Council (USGBC). Lastly, the Guidelines are flee and 
open to public use, providing no profit to NAHB NAHB encourages 
investment directly into sustainability. The LEED-H program, on the 
other hand, includes documentation and verification fees that can be as 
high as $3,000. That investment goes directly to the USGBC and its 
providers and does nothing to improve the resource efficiency of the 
home. Attached to this response is a side-by-side comparison, so that 
you can more accurately compare the Guidelines with the LEED-H.

    Question 2. Why is a consensus-based approach important in 
formulating green building standards?
    Response. A consensus-based approach is critical to formulating 
green building standards because it provides for input from a broad 
range of industry stakeholders--such as government agencies, academia, 
builders, building owners, and manufacturers--thus ensuring success. 
Also, the allowance of public review and scrutiny ensures that all 
interested parties are given an opportunity to shape the outcome, so 
that the integrity of the benchmarks is never in question. By allowing 
the public, the government, and industry to have transparency into the 
process. it is ensured that certain interests are not unfairly favored 
over others. Furthermore, this transparent and consensus- based process 
exists for many construction standards, both in the residential and 
commercial sector. These standards, and numerous others, are accredited 
by the American National Standards Institute (ANSI), the oversight 
authority on standards development.

    Question 3. What effect on Green Building innovation would 
mandating a single standard at the Federal level have?
    Response. A competitive market process enables green building to 
continually improve by both responding to the needs of consumers and 
builders and adjusting to new technology. By mandating a single 
standard at the federal level, the government would effectively limit 
innovation in green building and sustainable design as builders would 
struggle to use mandatory products and practices that may or may not be 
cost-effective, or easy to access. Mandates reduce the incentive for 
green building rating systems to adapt and change to meet the demands 
of the market. Choosing or emphasizing a singular rating system to the 
exclusion of others virtually ensures that builders will be given only 
one option for constructing sustainable homes. As one architect stated, 
``mandating one green building system is a race to the bottom,'' 
leaving builders with no impetus to strive towards newer technologies, 
greater efficiencies, or better products.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Lautenberg. Thank you very much.
    Mr. Hubbell, I will call on you now, please.

STATEMENT OF WARD HUBBELL, PRESIDENT, GREEN BUILDING INITIATIVE

    Mr. Hubbell. Mr. Chairman, members of the committee, thank 
you for the opportunity to discuss the benefits of green 
buildings. I am Ward Hubbell, president of the Green Building 
Initiative.
    Founded in 2003, the Green Building Initiative, or the GBI, 
is a not-for-profit organization dedicated to accelerating the 
practice of designing and maintaining more energy efficient, 
healthier, and more environmentally sensitive buildings 
throughout the Nation. We work in both the residential and 
commercial sectors.
    Our work in the residential sector revolves around our 
relationship with the National Association of Home Builders to 
educate builders and promote the NAHB's model green home 
guidelines for residential construction. These guidelines, 
developed through an inclusive and rigorous process, are fast 
becoming the accepted approach for residential green building 
throughout the Nation. We are proud to work with the NAHB and 
commend them for their leadership in this area.
    For commercial buildings, we offer state-of-the-art 
interactive web-based tools to facilitate the design and 
maintenance of sustainable commercial buildings. This portfolio 
of tools, widely used in Canada and known as Green Globes, has 
been enthusiastically received in the United States since we 
introduced it in 2004. Green Globes has been officially 
recognized by six State legislatures, piloted by several 
Federal agencies, and is being used on more than 300 public and 
private sector buildings throughout the Nation.
    With Green Globes for new construction, not only can a 
building achieve an environmental rating that is verified by an 
independent third party, but too can also assist designers and 
architects in selecting the right environmental strategy for 
their particular project. By using its companion system, Green 
Globes for the continual improvement of existing buildings, 
building operators can monitor the performance of their 
buildings to ensure that the enhanced environmental design 
actually equates to better performance.
    A full description of these tools, their origins, and our 
third party assessment processes are included in my written 
testimony.
    The entrance of the GBI and the groundbreaking work of the 
National Association of Home Builders not only complements the 
good work of other private organizations such as the U.S. Green 
Building Council, but it also creates a very healthy 
competitive dynamic that has served to stimulate some exciting 
advancements in the green building arena, for example, a 
movement toward the development of true consensus standards for 
green building.
    The GBI became the first organization of its kind to 
subject its ratings system to the rigors of a recognized 
consensus organization and we expect to establish Green Globes 
as an American national standard early next year. Other 
organizations have since pursued a similar path.
    Another example is the creation of practical, user-friendly 
tools to allow for the consideration of the cradle to grave 
environmental impacts of materials used in construction. With a 
life cycle assessment tool recently developed by the GBI, 
designers can now know the total energy, air, water, solid 
waste, and climate change impacts of the products they use. We 
are not only incorporating this data into our own rating 
system, but we have also offered it free of charge to any other 
rating organization or government entity that would like to 
incorporate it.
    We also believe our user friendly interactive platform has 
made it possible for a greater number of projects to be built 
to green standards and has encouraged the increasing use of 
technology in other rating systems.
    As this committee begins the important work of developing 
policy to help green the Nation's built environment, I would 
offer several observations for your consideration. First, green 
design is vitally important, but it is only part of the 
equation. Effective building operation and maintenance is 
necessary to ensure a sustainable built environment. Just as 
one can purchase a superbly designed vehicle, performance will 
greatly depend on how often one changes the spark plugs, 
rotates the tires, and drives it in for a tuneup. The same 
principle applies to buildings.
    Second, while environmental attributes such as durability, 
recycle content and short-term renewability are all important 
considerations, we must ultimately make decisions about the 
products we use based on a sound understanding of their total 
environmental impact. Good data on life cycle assessments can 
help us achieve our goal of carbon-neutral buildings.
    Finally, buildings are a big part of our climate problem. 
Public policy should harness the powers of competition to help 
solve it. Organizations such as the GBI, the National 
Association of Home Builders, the American Institute of 
Architects, and the U.S. Green Building Council and others are 
all working in various ways to develop approaches to measure, 
incentivize and promote green building. This competitive 
dynamic has already stimulated improvement in the field and is 
essential for the further advancement of the green building 
movement.
    Thank you.
    [The prepared statement of Mr. Hubbell follows:]
    Statement of Ward Hubbell, President, Green Building Initiative
    Chairman Boxer, Ranking Member Inhofe and members of the committee, 
thank you for the opportunity to showcase the benefits of green 
buildings, as well as highlight the work of the Green Building 
Initiative (GBI).
    The Green Building Initiative is a not-for-profit, 501(c)(3) public 
charity dedicated to accelerating the practice of designing and 
maintaining more energy efficient, healthier and less environmentally-
impactful buildings.
    Our organization was founded in 2003, initially to facilitate the 
adoption of the National Association of Home Builders Model Green Home 
guidelines for residential construction. These guidelines, developed 
through an inclusive and rigorous process, are fast becoming the 
accepted approach for residential green building nationwide. The NAHB 
developed their guidelines by following procedures approved by the 
American National Standards Institute--or ANSI--and now are on a path 
to develop the first true consensus standard for residential green 
building. We are proud to work with the NAHB and commend them for their 
leadership in this area.
    In addition to our work with the NAHB, we also offer systems to 
facilitate the sustainable design, development and maintenance of 
commercial buildings. Green Globes--widely used in Canada--was brought 
to the U.S. market by GBI. It is a portfolio of interactive, Web-based 
design and building performance tools that enable designers to evaluate 
environmental strategies for their buildings and achieve ratings that 
are verified by an independent third-party. A full description of these 
tools, their origins and our third party assessment processes are 
included below.
    The creation of the GBI and the groundbreaking work of the NAHB not 
only complements the good work of other private organizations such as 
the U.S. Green Building Council, but also creates a very healthy and 
competitive dynamic that has served to stimulate some exciting 
advancements in the green building arena. These include:
    <bullet> Movement toward the development of true consensus 
standards for green building. The GBI became the first organization of 
its kind to subject a rating system to the rigors of an independent, 
third-party, codified and consensus process under the rules of the 
ANSI. Other organizations have since pursued a similar path.
    <bullet> The creation of practical, user-friendly tools to allow 
owners and designers to consider the ``cradle-to-grave'' environmental 
impact of materials used in construction. With life cycle assessment 
tools recently developed by the GBI, designers can now make decisions 
based on the energy, air, water, solid waste and climate change impacts 
of more than 400 commonly used building assemblies. We're incorporating 
this data into our own rating system, and we've also offered it free of 
charge to any other rating organization or government entity that would 
like to utilize it.
    <bullet> Stimulating the increased use of technology in green 
assessment. The Green Globes interactive platform has helped make green 
design and assessment both cost-effective and user-friendly. This has 
made it possible for a greater number of projects to be built to green 
standards and has encouraged the increasing use of technology in other 
rating systems.
    As this committee begins the important work of developing policy to 
help green the nation's built environment, I would offer several 
observations for your consideration.
    1. Green design is vitally important, but it is only part of the 
equation. Effective building operation and maintenance is necessary to 
ensure a sustainable built environment. Just as one can purchase a 
superbly designed vehicle, performance will greatly depend on how often 
one changes the spark plugs, rotates the tires and drives in for a tune 
up. The same principle applies to buildings. That's why the GBI offers 
Green Globes tools to facilitate and certify building design as well as 
building operation and maintenance.
    2. While environmental attributes--such as durability, recycled 
content and short term renewability--are all important considerations, 
we must ultimately make decisions about the products we use based on a 
sound understanding of their lifetime environmental impact. Good life 
cycle assessment data can help to achieve our goals of carbon neutral 
buildings.
    3. Finally, buildings are a big contributor to the problem of 
climate change. Public policy should harness the powers of competition 
to help the building sector contribute to a solution. Organizations 
such as the GBI, the NAHB, the American Society of Heating, 
Refrigerating and Air-conditioning Engineers, the National Institute of 
Standards and Technology, ASTM International and the U.S. Green 
Building Council are all working in various ways to develop approaches 
to measure, incentivize and promote green building. This competitive 
dynamic has already stimulated improvement in the field and is 
essential for the further advancement of the green building movement.
                  green building initiative background
    The Green Building Initiative (GBI) is a 501(c)(3) non-profit 
education organization based in Portland, Oregon. It was established to 
accelerate the adoption of sustainable design and construction 
practices by promoting credible and practical approaches to green 
building for both residential and commercial construction.
    I serve as President at the discretion of an independent, multi-
stakeholder board of directors comprised of construction professionals, 
product manufacturers, non-profit organizations, university officials, 
and other interested third parties. Each board member is allocated one 
vote to guide the GBI, ensuring an equal balance of influence. For a 
list of board members, please visit our Web site at www.thegbi.org.
    In terms of funding, the GBI has benefited from the early support 
of a core group of industries that are committed to advancing the green 
building movement by creating a variety of credible options for their 
builder customers. Since our inception, we have also worked tirelessly 
to diversify our financial base through membership, training and other 
initiatives. You can view the GBI's complete list of funders at 
www.thegbi.org.
    We have also long recognized the power of collaboration and have 
tried to foster relationships with a variety of organizations related 
to the built environment to help accelerate the acceptance of 
sustainable design and construction in the marketplace. Some of the 
organizations that we have worked with include:
    <bullet> American Institute of Architects
    <bullet> National Association of Home Builders
    <bullet> Associated General Contractors of America
    <bullet> Sustainable Buildings Industry Council
    <bullet> U.S. Conference of Mayors
    <bullet> Building Owners and Managers Association
                         the mission of the gbi
    The GBI is committed to helping promote green building by offering 
credible and practical solutions to make green design, management and 
assessment more accessible to a wider population of builders and 
designers.
    For residential construction, the GBI has a unique strategic 
partnership with the NAHB. Our role is to promote the NAHB Model Green 
Home Building Guidelines to residential construction professionals, and 
to work with NAHB chapters, called home builder associations, to 
develop and populate local green building programs based on the 
national guidelines. We provide technical assistance, promotional and 
marketing support, host educational seminars for builder members, and 
conduct market research in an effort to spur sustainable development, 
as well as consumer demand for green homes. To date, in partnership 
with the NAHB and their local affiliates, the GBI has helped to develop 
and launch local and State green building programs in 15 major markets 
across the country. For a list of these programs, please visit 
www.thegbi.org.
    For commercial construction, the GBI owns the rights to promote and 
distribute the Green Globes environmental assessment and rating system, 
which was originally developed for the Canadian marketplace. Green 
Globes is a revolutionary green management tool that features an 
assessment protocol, rating system and guide for integrating 
environmentally friendly design into commercial buildings. It features 
modules for New Construction and the Continual Improvement of Existing 
Buildings and facilitates recognition of completed projects through 
third-party verification. The system is successful because it is 
rigorous, yet easy to use and affordable. Due to its unique, Web-based 
platform, the detailed information and references users need to design 
sustainable, energy-efficient buildings are embedded within the system 
providing the most relevant information at exactly the time it is 
needed.
Innovation and Competition
    The rating systems we promote--NAHB Model Green Home Building 
Guidelines for residential construction and Green Globes for commercial 
construction--have helped accelerate the adoption of green building 
practices by driving advancements in green building rating systems.
    In addition to supporting the diversity of buildings and building 
professionals, we believe that competition will continue to do for 
green building what it has done in countless other areas--drive 
improvements, lower costs and benefit the ultimate consumer, which in 
this case, is our shared environment.
    The following initiatives are explained in more detail below, but, 
in the last two years alone, GBI:
    <bullet> Became the first green building organization to be 
accredited as a Standards Developing Organization (SDO) by ANSI and is 
well into the process to establish our Green Globes system, as the 
first commercial green rating system to become an ANSI standard.
    <bullet> Began pilot testing Green Globes for the Continual 
Improvement of Existing Buildings to strengthen the link between 
sustainable design objectives and actual building performance,
    <bullet> Developed the first tool for integrating life cycle 
assessment (LCA)--considered to be the most effective way to compare 
the environmental impacts of building materials and assemblies--into a 
green rating system, and
    <bullet> Chose to advance the green movement as a whole by 
supporting the development of a generic version of our LCA tool--the 
ATHENA Eco-Calculator for Assemblies--which will soon be available 
from the ATHENA Institute, free of charge, to the entire sustainable 
design community.
    GBI's status as an innovator was also reinforced by the AIA's and 
Architecture 2030's recent call for climate change legislation based on 
energy data generated through the Department of Energy's Commercial 
Buildings Energy Consumption Survey (CBECS). Widely considered to be 
the most accurate and reliable source of energy benchmarking 
information, GBI and the EPA's Energy Star program are the only rating 
systems that rely on this important database. Green Globes is unique in 
its emphasis on using CBECS for both its design and existing buildings 
modules--where it serves as the system's benchmark for measured 
reductions in energy consumption.
                  green globes-history and credentials
    The Green Globes environmental assessment and rating system 
represents more than nine years of research and refinement by a wide 
range of prominent international organizations and experts.
    The genesis of the system was the Building Research Establishment's 
Environmental Assessment Method (BREEAM), which was brought to Canada 
in 1996 in cooperation with ECD Energy and Environment. Pioneers of 
this project included Jiri Skopek, John Doggart and Roger Baldwin, who 
were the principal authors of the BREEAM Canada document.
    In 1996, the Canadian Standards Association (CSA) published BREEAM 
Canada for Existing Buildings. More than 35 individuals participated in 
its development, including representatives from the following 
organizations:
    <bullet> Bell Canada
    <bullet> Carrier
    <bullet> Canadian Construction Research Board
    <bullet> Canadian Standards Association
    <bullet> ECE Group
    <bullet> Environment Canada
    <bullet> Environmental Planning Institute of Canada
    <bullet> Halozone, Inc.
    <bullet> International Council for Local Environmental Initiatives
    <bullet> Natural Resources Canada
    <bullet> National Research Council
    <bullet> Ontario Hydro
    <bullet> Ontario Realty Corporation
    <bullet> Tescor Energy Services, Inc.
    <bullet> University of Toronto
    In 1999, ECD Energy and Environment worked with TerraChoice, the 
agency that administers the Government of Canada's Environmental Choice 
program, to develop a more streamlined, question-based tool, which was 
introduced as the BREEAM Green Leaf eco-rating program. This program 
led to the development of Green Leaf for Municipal Buildings with the 
Federation of Canadian Municipalities later that year.
    In 2000, BREEAM Green Leaf took another leap forward in its 
evolution, becoming an online assessment and rating tool under the name 
Green Globes for Existing Buildings. Also that year, BREEAM Green Leaf 
for the Design of New Buildings was developed for the Department of 
National Defense and Public Works and Government Services Canada.
    In 2002, Green Globes for Existing Buildings was introduced online 
in the United Kingdom as the Global Environmental Method (GEM). Work 
also began to adapt BREEAM Green Leaf for the Design of New Buildings 
into the online Green Globes for New Buildings. Participants in this 
process included representatives from:
    <bullet> Arizona State University
    <bullet> Besto Group
    <bullet> Building Owners and Manufacturers Association of Canada
    <bullet> Canadian Construction Association
    <bullet> Canadian Standards Association
    <bullet> Department of National Defense
    <bullet> DST Group
    <bullet> Elia Sterling Associates
    <bullet> Energy Profiles
    <bullet> GWL Realty
    <bullet> MCMP Architects
    <bullet> Natural Resources Canada
    <bullet> Public Works and Government Services Canada
    <bullet> Stewart Energy
    <bullet> TerraChoice
    <bullet> The ATHENA Institute
    In 2004, Green Globes for Existing Buildings was adopted by the 
Building Owners and Manufacturers Association of Canada (BOMA) under 
the name Go Green Comprehensive (now Go Green Plus). Since then, the 
Canadian federal government has adopted Go Green Plus as a green 
management tool for its portfolio of more than 500 existing buildings. 
It is also integral to the Ontario Power Authority's program for energy 
retrofits, and is used by most major property management firms.
             green globes and the green building initiative
    In 2004, the GBI acquired the rights to distribute Green Globes for 
the Design of New Buildings in the United States. In adapting the 
system for the U.S. market, the only changes made were those necessary 
to make the system appropriate for the U.S. market (e.g. converting 
units of measurement and integration with the U.S. Energy Star 
program).
    However, we have since committed ourselves to ensuring that Green 
Globes continues to reflect best practices and ongoing advances in 
research and technology.
    To that end, the GBI sought and received accreditation as an ANSI 
standards developer and began the consensus-based process of 
establishing Green Globes as the first ANSI standard for commercial 
green building. As part of the process, the GBI established a technical 
committee and sub-committees featuring nearly 100 building science 
experts, including representatives from four federal agencies, states, 
municipalities, universities and leading construction firms, as well as 
building owners. A complete list is available at www.thegbi.org.
    As part of the ANSI process, the GBI has relinquished control of 
the Green Globes tool to the technical committee, which will determine 
the final standard without influence from the GBI board of directors, 
funders or staff.
                           about green globes
    Although many green building tools claim to be Web-enabled, this is 
typically limited to providing online information and templates. Green 
Globes' use of Web tools is far more complex, and offers a fully 
interactive experience.
    Once an online questionnaire is completed, the system generates a 
point score and project design highlights. is the report generated 
includes an educational component, which highlights sustainability 
attributes of the building and provides detailed suggestions for 
improvements that should result in a reducing the building's overall 
environmental impact. This is supported by hot-links to further 
information regarding best design practices and standards or specific 
information on building systems and materials. Links are selected to 
provide educational information, government references, NGOs, and 
industry research relevant to each stage of project delivery and helps 
users achieve a better high performance design and higher Green Globes 
score.
    Projects are awarded up to 1,000 points based on their performance 
in seven areas of assessment:
    1. Project Management-50 Points.--The Green Globes system places an 
emphasis on integrated design, an approach that encourages multi-
disciplinary collaboration from the earliest stages of a project while 
also considering the interaction between elements related to 
sustainability. Most decisions that influence a building's performance 
(such as siting, orientation, form, construction and building services) 
are made at the start of the project and yet it's common, even for 
experienced designers, to focus on environmental performance late in 
the process, adding expensive technologies after key decisions have 
been made. This is costly as well as ineffective.
    To ensure that all of the relevant players are involved, the system 
tailors questionnaires so that input from team members is captured in 
an interactive manner, even on those issues which may at first appear 
to fall outside their mandate. For example, while site design and 
landscaping may come under the purview of the landscape designers, the 
questionnaire prompts the electrical engineer to get involved with 
design issues such as outdoor lighting or security. Thus the Green 
Globes format promotes design teamwork and prevents a situation where, 
despite strong individual resources, the combined effort falls short.
    Also included under project management are environmental 
purchasing, commissioning, and emergency response.
    2. Site-115 Points.--Building sites are evaluated based on the 
development area (including site selection, development density and 
site remediation), ecological impacts (on ecological integrity, 
biodiversity, air and water quality, microclimate, habitat, and 
nocturnal fauna and flora), watershed features (such as site grading, 
storm water management, previous cover and rainwater capture), and site 
ecology enhancement.
    3. Energy-360 Points.--To simplify the process of energy 
performance targeting, Green Globes directs users to the Web interface 
used for the Energy Star Target Finder software, which helps to 
generate a realistic energy consumption target. As a result, an 
aggressive energy performance goal can be set--with points awarded for 
design and operations strategies that result in a significant reduction 
in energy consumption--as compared to actual performance data from real 
buildings.
    As previously stated, Green Globes is the only green rating system 
to use energy data generated through the DOE's Commercial Buildings 
Energy Consumption Survey (CBECS), which is widely considered to be the 
most accurate and reliable source of energy benchmarking information.
    In addition to overall consumption, projects are evaluated based on 
the objectives of reduced energy demand (through space optimization, 
microclimatic response to site, day lighting, envelope design and 
metering), integration of ``right sized'' energy-efficient systems, on-
site renewable energy sources, and access to energy-efficient 
transportation.
    4. Water--100 Points.--Projects receive points for overall water 
efficiency as well as specific water conservation features (such as 
sub-metering, efficiency of cooling towers and irrigation strategies), 
and on-site treatment (of grey water and waste water).
    5. Resources--100 Points.--The resources section covers building 
materials and solid waste. It includes points for materials with low 
environmental impact (based on life cycle assessment), minimal 
consumption and depletion of resources (with an emphasis on materials 
that are re-used, recycled, bio-based and, in the case of wood 
products, certified as having come from sustainable sources), the re-
use of existing structures, building durability, adaptability and 
disassembly, and the reduction, re-use and recycling of waste.
    6. Emissions, Effluents and Other Impacts--75 Points.--Points in 
this section are awarded in six categories, including air emissions, 
ozone depletion and global warming, protection of waterways and impact 
on municipal waste water treatment facilities, minimization of land and 
water pollution (and the associated risk to occupants' health and the 
local environment), integrated pest management, and the storage of 
hazardous materials.
    7. Indoor Environment--200 Points.--According to the U.S. 
Environmental Protection Agency (EPA), indoor air can be up to 10 times 
more polluted than outdoor air, even in cities where the quality of 
outdoor air is poor. This has obvious health implications, but the 
consequences are also economic. A study by Lawrence Berkeley National 
Laboratory found that improving indoor air at work could save U.S. 
businesses up to $58 billion in lost sick time each year, with another 
$200 billion earned in increased worker performance.
    This section evaluates the quality of the indoor environment based 
on the effectiveness of the ventilation system, the source control of 
indoor pollutants, lighting design and the integration of lighting 
systems, thermal comfort and acoustic comfort.
    Projects that achieve a score of 35 percent or more become eligible 
for a Green Globes rating of one, two, three or four globes, as 
follows:
    <bullet> One Globe: 35-54 percent
    <bullet> Two Globes: 55-69 percent
    <bullet> Three Globes: 70-84 percent
    <bullet> Four Globes: 85-100 percent
    However, buildings cannot be promoted as having achieved a Green 
Globes rating until the information submitted has been third-party 
verified by a qualified and authorized individual assessor.
    The GBI currently oversees Green Globes-trained verifiers comprised 
primarily of licensed architects and engineers with significant 
experience in building sciences and sustainability issues. The Green 
Globes third-party verification process features a rigorous two-stage 
approach.
    Stage I can be initiated by the design team as soon as the 
Construction Documents questionnaire is finalized. The completed 
questionnaire is verified against the documentation generated 
throughout the design process and, providing the building is on target 
to achieve a minimum of 35 percent of the 1,000 possible points, the 
design team receives a Certificate of Achievement. However, a final 
rating cannot be achieved until after a Stage II verification, which 
occurs post-construction. Stage II includes a site visit and walk-
through by the third-party verifier and can be initiated as soon as 
construction is complete.
    To further strengthen our third-party verification program, the GBI 
recently announced an agreement with CSA America, Inc., a leading 
developer of standards and codes, to develop an independently 
accredited Green Globes Personnel Certification Program. CSA America is 
developing the program on behalf of GBI for assessors using the Green 
Globes system to verify achievements in the design and operation of 
green buildings. It is the industry's first independently administered 
certification program for third-party verifiers of green buildings.
              green globes and life cycle assessment (lca)
    The green building movement is experiencing a fundamental shift in 
the way it approaches sustainable design, away from a prescriptive 
methodology--whereby materials are assumed to have environmental 
benefits based on rapid renewability, recycled content or other 
attributes--toward one that emphasizes measurable performance. Life 
cycle assessment (LCA) is a means to this end because it allows the 
impartial comparison of materials, assemblies and even whole buildings, 
from cradle-to-grave, in terms of quantifiable impact indicators such 
as global warming potential.
    LCA is widely accepted in the environmental research community as 
one of the best ways to assess building sustainability, but its use has 
been limited by the perception that it's too complex or time consuming 
for mainstream practitioners. Now, thanks to a new tool commissioned by 
the GBI, LCA is more accessible than ever before to architects, 
engineers, policy makers, manufacturers and developers, regardless of 
environmental design experience.
    Developed for use with the Green Globes system, the new tool 
provides instant LCA results for more than 400 common building 
assemblies in low- and high-rise categories--including exterior walls, 
roofs, intermediate floors, interior walls, windows, and columns and 
beams. It was created by the ATHENA Institute in association with the 
University of Minnesota's Center for Sustainable Building Research and 
Morrison Hershfield Consulting Engineers. ATHENA's widely acclaimed 
Impact Estimator for Buildings was used to generate the results 
embedded in the tool.
    The tool is currently being reviewed by the ANSI technical 
committee prior to its integration into Green Globes. However, 
recognizing its importance as an indicator of climate change impacts, 
GBI supported the team's creation of a generic version for use by the 
entire sustainable design community. This version will soon be 
available, free of charge, from the ATHENA Web site (www.athenasmi.ca), 
and we are encouraging its use among other green building organizations 
and universities, and at all levels of government.
                 green globes and other rating systems
    There is a great deal of agreement as to what constitutes best 
energy and environmental practices, so the major green building 
standards and rating systems have more similarities than differences.
    For example, a team of independent researchers at the University of 
Minnesota recently published the results of a three month intensive 
analysis of Green Globes and LEED.
    The report, ``Green Building Systems: A Comparison of the LEED and 
Green Globes Systems in the US,'' is available on the GBI Web site 
(www.thegbi.org/gbi/Green--Building--Rating--UofM.pdf). It provides a 
detailed comparison of how the systems operate as well as their 
respective strengths and weaknesses.
    Among its conclusions, the report states that ``in total the 
systems are quite similar,'' and that ``both include a common set of 
potentially impactful design elements that contribute to the 
improvement of a building's green performance.''
    The study also found that nearly 80 percent of the categories 
available for points in Green Globes are also addressed in LEED 2.2 and 
that over 85 percent of the categories specified in LEED 2.2 are 
addressed in Green Globes.
    It concluded that, while comparing the two systems is extremely 
difficult, there are a number of trends ``worth noting.'' Included in 
this summary were the following three points:
    <bullet> Green Globes ``appears to be doing a fairly good job in 
improving upon the delivery mechanisms employed by LEED which are so 
often criticized,'' by providing an online approach to assessment that 
improves efficiency and reduces costs,
    <bullet> Green Globes better integrates life-cycle thinking into 
its rating system, and
    <bullet> The GBI, as an accredited standards developer under the 
American National Standards Institute (ANSI) ``will undoubtedly enhance 
Green Globes presence in the marketplace'' by undergoing the consensus-
based process associated with creating an official ANSI standard for 
green building practices.
    In addition, the study revealed some ``moderate dissimilarity'' in 
point allocations in the two systems, pointing out that ``Green Globes 
emphasizes energy use above all other categories. In contrast, LEED 
allocates comparatively more points to the Materials section.'' It 
reported that areas such as indoor environmental quality, resources, 
and site ecology are similarly emphasized by both systems, and that 
Green Globes employs a rating criterion that reflects life-cycle 
thinking and covers the entire life-cycle of building materials.
    It also stated that, ``from a process perspective, Green Globes' 
simpler methodology, employing a user-friendly interactive guide for 
assessing and integrating green design principles for buildings, 
continues to be a point of differentiation to LEED's more complex, and 
largely paper-based system. While LEED has recently introduced an 
online-based system, it remains more extensive and requires expert 
knowledge in various areas. Green Globes' Web-based self-assessment 
tool can be completed by any team member with general knowledge of the 
building's parameters.'' The researchers added that, ``in contrast, 
LEED tends to be more rigid, time-intensive, and [more] expensive to 
administer.''
    Aside from the fundamental similarities, the Green Globes system 
has a number of unique characteristics that make it an attractive 
option for those seeking a tool that's both rigorous and practical, at 
an affordable price. For example, Green Globes is:
Flexible
    Designed for use on building projects of any size, Green Globes is 
suitable for everything from large and small offices and multi-family 
structures, to institutional buildings such as schools, universities 
and libraries.
Encourages Building Comparisons
    Owners and developers with multiple properties can use Green Globes 
to assess and compare the buildings in their portfolio. As more and 
more buildings are Green Globes verified, point scores will also be 
aggregated in an anonymous database, enabling users to analyze how both 
their designs and existing buildings perform in relation to the median 
and to buildings that are similar in size, type and region.
Promotes Integrated Design
    Green Globes facilitates the integrated design process, encouraging 
multi-disciplinary collaboration from the earliest stages of a project. 
The system guides design team members by reminding them of next steps 
and introducing the elements of sustainability in a logical sequence.
Facilitates Planning
    Self-assessment occurs in two phases: during the schematic design 
stage (which corresponds with site plan approval) and during the 
construction documents stage (which typically corresponds with building 
permit approval). This allows design teams, clients and municipal 
authorities to review a detailed report that provides the percentage of 
points likely to be achieved (out of 1,000), highlights the project's 
environmental attributes, and suggests opportunities for improvement.
                         u.s. market acceptance
    To date, eight buildings have successfully completed Green Globes 
third-party verifications across the United States, with an additional 
70 buildings in the pipeline.
    Of those that have completed the verification process, four of the 
eight have also been certified under the USGBC's LEED program, and two 
are awaiting their final LEED certification. Because both systems have 
similar four tiered rating structures, these dual-certified buildings 
provide benchmark data demonstrating that while not identical, the 
systems are comparable--in terms of the final ratings and areas of 
assessment. They just take a different approach to reach the same goal.
    Examples of dual-certified projects include:
    <bullet> William J. Clinton Presidential Center (Little Rock, AR)

        <bullet> Two Green Globes; LEED Silver

    <bullet> Alberici Corporate Headquarters (St. Louis, MO)

        <bullet> Four Green Globes; LEED Platinum

    <bullet> Blakely Hall (Issaquah, WA)

        <bullet> Two Green Globes, LEED Silver

    <bullet> Pfizer Inc. Clinical Research Unit (New Haven, CT)*

        <bullet> Three Green Globes, LEED Silver

    *This project received points for excellence in project management 
for their integrated design process, which were not available in LEED.
    Green Globes has also been formally recognized by the public and 
private sectors including:
    <bullet> Formal recognition of Green Globes by six states in green 
building legislation and executive orders, including Arkansas, 
Connecticut, Hawaiii, Maryland, Pennsylvania and Wisconsin.
    <bullet> Inclusion in the Fireman's Fund Insurance Company's 
Certified Green Building Replacement and Green Upgrade coverage 
package, which provides discounted rates for certified green buildings. 
(The Fireman's Fund is the only insurance company currently offering 
incentives for green commercial buildings.)
    <bullet> Indications from several federal agencies, including the 
Department of Health and Human Services (piloting Green Globes on the 
NIH building in Maryland and an Indian Health Services building in 
Arizona) and the Department of the Interior (piloting Green Globes on a 
building in New Mexico) that Green Globes provides unique benefits that 
made it worthy of adding into their formal sustainability policies.
                           future of the gbi
    The GBI has made tremendous strides in a short time--and we intend 
to continue leading science-based and technologically-advanced 
initiatives that allow us to bring to fruition important contributions 
on priority issues within the green building movement.
    One contribution is to ensure that the those working with the 
existing built environment have a reliable, affordable and holistic 
tool for improving the energy efficiency of existing buildings, while 
considering other environmental impacts. It is critical that our Nation 
make strides in improving our existing building stock and at the same 
time address the gap between design intent and actual building 
performance.
    The unfortunate reality is that many buildings designed to be 
sustainable fail to perform as expected. There are logical reasons, 
such as the fact that design team predictions may have been based on 
ideal assumptions, while actual performance was diminished by 
unforeseen variables, such as moving budget targets, value engineering, 
or insufficient commissioning. But to a building owner that receives 
higher than expected utility bills or fails to achieve his or her 
energy reduction targets, the reasons matter less than the results.
    What's been missing, until now, is a way to measure and monitor 
performance on an ongoing basis. That is why GBI is introducing Green 
Globes for Continual Improvement of Existing Buildings (Green Globes-
CIEB).
    There is an increasing demand for accountability--through 
mechanisms such as climate change legislation, which mandate energy and 
CO<INF>2</INF> reductions--and building owners are being called upon to 
improve building performance with verifiable results. They need to know 
quickly and reliably whether specific improvements are having the 
intended effects.
    Green Globes-CIEB allows users to create a baseline of their 
building's performance, evaluate interventions, plan for improvements, 
and monitor success--all within a holistic framework that also 
addresses the building's physical and human elements such as material 
use and indoor environment.
    In the context of climate change, energy is the most significant 
area of assessment within Green Globes-CIEB. A combined focus on energy 
use, building features and management helps to pinpoint where 
performance is lacking and what corrective action is required. The 
system uses the EPA's Portfolio Manager to determine a consumption 
target in k/Btus for each building type, and, where appropriate, 
buildings must meet a minimum performance target of 75 percent based on 
the comparable EPA Target Finder building.
    Green Globes-CIEB is being pilot tested with the goal of 
demonstrating that it provides the combination of a credible baseline 
and guidance that allows users to plan with accuracy the interventions 
required to achieve measured reductions in energy consumption for 
existing buildings.
    In the first six weeks after the launch of the pilot, the GBI 
registered 111 users and 34 buildings began the assessment process. At 
this time, more than 160 buildings are using this web-enabled 
assessment. This supports our belief, not only in the urgent need for 
practical and cost-effective tools such as Green Globes-CIEB, but in 
their ability to transform the market from one in which green building 
leads to valuable but imprecise benefits to one in which it defines the 
path for achieving specific and measured environmental goals.
    Other GBI priorities include:
    <bullet> Further integration of LCA into our suite of tools, 
including specific regional versions for the different climate zones 
across the country.
    <bullet> Interactive tools that make it easier for home builders to 
learn about and adopt sustainable practices.
    Thank you again for inviting the Green Building Initiative to 
participate in today's hearing. We look forward to the opportunity to 
work with all of the members of the committee to help make green 
building the norm, rather than the exception in residential and 
commercial construction.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Response by Ward Hubbell to an Additional Question from Senator Sanders
    Question. In your testimony you talk about the ``green building'' 
work being done by the National Association of Home Builders through 
the Green Building Initiative. You fall, however, to give details about 
what this means, such as, how much energy has been saved, how much 
water has been saved, what are the reductions in CO<INF>2</INF> 
emissions, how much have you improved indoor air finality, etc. . . , 
What concrete changes can you point to from your ``green building'' 
practices?
    Response. Two related shortcomings of the green building movement 
as a whole have been our tendency to focus on a building's design 
instead of its performance and our promotion to date of prescriptive 
tools and guidelines instead of those that are performance-based. While 
a sustainable design is the first step to achieving energy and other 
savings, it is just one part of the equation. A buildings performance 
is also greatly influenced by the specifics of its occupancy and 
management.
    As a result, although more than 100 homes have been certified to 
the National Association of Home Builders (NAHB) Model. Green Home 
Building Guidelines through work with the Green Building Initiative 
(GBI), and thousands more have started the process. I am unable to 
point to any concrete evidence of energy savings, carbon emission 
reductions or improved indoor-air quality from their participation in 
the program. Most of the data that our sector uses to encourage 
sustainability is anecdotal, but we intend to change that.
    For the commercial sector, the GBI is preparing to release a new 
module of the Green Globes system--Green Globes for Continual 
improvement of Existing Buildings--which is currently being piloted. 
With its emphasis on performance data, the new module will provide a 
practical and cost-effective mechanism, (a) for ensuring that high 
performance designs result in high performance buildings, and (b) for 
evaluating, comparing and improving buildings over the long term. It 
will also provide some mud, needed data on the type of savings one can 
expect from sustainable construction practices.
    For the residential sector, we intend to commission studies on 
homes based or the NAHB guidelines in order to understand the true 
performance impacts of the recommended practices and more accurately 
forecast the benefits.
    As soon as this data is available, the GBI will develop a formal 
report to share with the Senate Committee on Environment and Public 
Works.
                                 ______
                                 
 Response by Ward Hubbell to an Additional Question from Senator Warner
    Question. As you know, some federal agencies, like the Department 
of Health and Human Services, have issued policies Incorporating the 
Green Globes rating system into their guidance for sustainable and high 
performance buildings. Have the Green Globes system provided 
certification to any federal buildings to date? What kind of long-term 
savings should the agencies expect?
    Response. Taking into consideration that the Green Globes 
environmental assessment and rating system has been available in the 
United States for less than two years, we are pleased to report 
progress with a number of federal buildings.
    The William J. Clinton Presidential Library and Museum in Little 
Rock, Ark. was the first federally funded project to undergo both the 
initial assessment and third-party verification process required before 
any building can be promoted as having achieved a Green Globes rating.
    We are currently working with the Department of Health and Human 
Services (DHHS), which is piloting Green Globes on the National 
Institute of Health building in Maryland and an Indian Health Services 
building in Arizona, as well as the Department of the Interior (DOI), 
which is piloting Green Globes on a building in New Mexico.
    The GBI provides interactive solutions that make even the most 
sophisticated processes practical and accessible, and agencies such as 
these should expect many benefits from using the Green Globes system--
not only as an assessment and rating tool, but as a guide for 
integrating environmentally-friendly design into new and existing 
buildings.
    The Green Globes system's revolutionary interactive platform gives 
all building professionals, regardless of experience, the opportunity 
to incorporate sustainable principles into their projects. The system 
is designed for use with buildings of any size and, in response to the 
U.S. Government's creation of Guiding Principles for Federal Leadership 
in High Performance Sustainable Buildings with its Memorandum of 
Understanding; it has been identified by agencies such as the DHHS and 
DOI for use with all new construction/renovation projects.
    Use of the Green Globes system is also in keeping with the 
government's desire to increase efficiencies through ``electronic 
government.'' As you know, many agencies are being asked to enhance 
service delivery by increasing their Information Technology resources. 
As an online system that's also easy to use and cost-effective, Green 
Globes helps to address this growing need.
                                 ______
                                 
 Responses by Ward Hubbell to Additional Questions from Senator Inhofe
    Question 1. There is already one rating system (LEED) used widely 
in the United States, Why Is it Important that other rating systems 
also be available?
    Response. Obviously, there is some similarity between the GBI and 
organizations such as the U.S. Green Building Council (USGBC). Were 
both private sector, nonprofit organizations that offer tools for 
assessing and rating green structures. However, while we are 
technically competitors, I believe share the common goal of a much 
greener built environment--and that our tools have their own unique 
characteristics that, together, meet the needs of a much broader 
segment of the design and building community.
    What's important to keep in mind is that as in other segments of 
society, healthy competition among rating systems will drive 
improvements. lower costs and benefit the ultimate consumer which In 
this case is our shared environment. I also believe its necessary to 
motivate the kind of innovation--both separately and collectively--that 
our Nation needs to address crisis-level problems such as climate 
change.
    Let me be clear, organizations such as the USGBC have contributed 
mightily to the cause of green building and LEED is a helpful tool. 
Yet, as with all such tools Our own included), it comes with its own 
unique set of limitations.
    In addition to providing a greater range of options for design and 
building professionals, an increased level of competition in the green 
rating field has already stimulated some exciting advancements in the 
green building arena. These include:
    <bullet> Movement toward the development of true consensus 
standards for green building. The GBI became the first organization of 
its kind to subject a rating system to the rigors of an independent, 
third party, codified and consensus-based process under the rules of 
the American National Standards Institute (ANSI). Other organizations 
have since pursued a similar path.
    <bullet> The creation of practical, user-friendly tools to allow 
owners and designers to consider the ``cradle-to-graver'' environmental 
impact of materials used in construction. With life cycle assessment 
tools recently developed by the GBI, designers can now make decisions 
based on the energy, a water, solid waste and climate change impacts of 
more than 400 commonly used building assemblies. We're incorporating 
this data into our own Green Globes rating system, and we've also 
offered it free of charge to any other rating organization or 
government entity that wants to use it.
    <bullet> Stimulating the increased use of technology in green 
assessment. The Green Globes interactive platform has helped make green 
design and assessment both cost-effective and user-friendly. This has 
made it possible for a greater number of projects to be built to green 
standards and has encouraged the increasing use of technology in other 
rating systems.
    In addition, Green Globes and other similar tools play an important 
role by attracting mainstream design and construction professionals 
whose needs (and budgets) aren't met by other systems. For example, in 
Summit County, Colo., the local government and High Country 
Conservation Center celebrated a sustainable construction milestone 
last year when the Summit County Materials Recovery Facility (MRF) 
became the first recycling facility in the country to be built green.
    As a mission-driven, non-profit, the Summit County MRF required a 
system such as Green Globes, which offers affordability, flexibility 
and user friendliness. Without this option, it would have been 
impractical to assess and rate the building's environmental 
achievements--and its accomplishments would have gone unrecognized.
    The bottom line: green building does not only apply to big budget 
projects and cathedrals of architecture. The market can bear--and 
frankly needs--a variety of options that accommodate a full range of 
budgets and building types, as well as the individual preferences of 
architects, builders and others in a position to influence the adoption 
of sustainable building practices.

    Question 2. What effect on Green Building innovation would 
mandating a single standard at the Federal level have?
    Response. As indicated above, increased competition since the 
inception of the GBI has already spurred improvements. However, while 
we have come a long way in the work to better our built environment, 
there is still more to be done. Mandating a single standard at the 
Federal level would promote a monopoly situation and stifle the 
innovations inspired through a competitive environment.
    Simply put, if the government finds it necessary to mandate green 
building, it is vital that the legislation or executive order be rating 
system neutral. If we want the green building movement to mature and 
grow, we need the power of competition to drive the improvements that 
will take us to the next level.

    Question 3. Why is a consensus-based approach important in 
formulating green building standards?
    Response. True consensus standards are established when a 
recognized standards developer follows a prescribed process that 
subjects every aspect of its rating system to review, analysis and 
voting by a balanced group of independent stakeholders.
    In the case of the GBI, we were the first green building 
organization to become a standards developer under ANSI. The USGBC and 
the NAHB followed suit, but the USGBC has not initiated a standards 
development process. The GBI and NAHB are working to establish the 
Green Globes rating system and the NAHB Model Green Home Building 
Guidelines (respectively) as the first ANSI standards for commercial 
and residential green building.
    Speaking to the GBI's ANSI process, the Green Globes system is 
undergoing a thorough review by an independent technical committee and 
seven expert subcommittees, which will make modifications through a 
formal voting process. Before it can be ratified, the standard must be 
released for public comment and all negative comments must be addressed 
by the committee in writing.
    While other green building standards are commonly referred to as 
consensus standards, they are neither developed nor maintained through 
an independent, third-Party process for consensus development. This is 
an important distinction, not only because the federal government has 
stated that it prefers voluntary consensus standards for use in federal 
buildings, but because standards not developed by consensus are under 
the control of their governing bodies.
    Utilizing established, consensus-based procedures, such as those 
required by ANSI, to develop a green building standard encourages a 
fair, equitable and open process that helps ensure the best standard 
will be brought forward to the public.

    Question 4a. Explain why you decided to pursue ANSI certification 
for Green Globes.
    Response. With an estimated 100 million buildings in operation by 
2010, it is vital that organizations like the GBI and others encourage 
green building by developing third-party codified consensus standards 
buildings based on sound building science.
    The GBI is committed to offering consensus-based standards that are 
also practical and affordable, and give design and construction 
professionals the confidence that they are working with the best tools 
available. Through the ANSI process, we are leveraging the considerable 
knowledge of nearly 100 building science experts who sit on our 
technical committee and subcommittees and will also seek public comment 
We feel confident that the result will be a highly credible and useful 
standard.
    We also applaud the decision of our partners at the NAHB to take 
their Model Green Home Building Guidelines through the same ANSI 
process, as well as organizations such as the National Institute of 
Building Sciences, American Society of Heating, Refrigerating and Air-
Conditioning Engineers and ASTM International, which are working to 
develop minimum standards for green building. Together, these 
Initiatives will provide a variety of options that accommodate a full 
range of budgets, building types and preferences.

    Question 4b. Will you continue to pursue ANSI certification for 
other rating systems you might promote in the future?
    Response. We will most assuredly evaluate opportunities to seek 
ANSI accreditation for future tools and rating systems.

    Question 5. In your testimony, you mentioned the prescriptive 
nature of rating systems and the need to move towards performance-based 
systems. Please elaborate.
    Response. The green building movement is experiencing a fundamental 
shift in the way it approaches sustainable design, away from a 
prescriptive methodology--whereby certain practices or materials are 
assumed to have environmental benefits--toward one that emphasizes 
measurable performance.
    For example, many people believe it's better for the environment to 
use materials produced within 500 miles of the structure being built. 
On the surface this makes sense--since less energy will be required to 
transport the materials. But there are a tremendous number of factors 
that influence whether or not a locally produced material is 
preferable, including the source of its components, type of 
manufacturing process and mode of transportation.
    Life cycle assessment (LCA), which allows the impartial comparison 
of building designs based on measures such as global warming potential, 
is widely considered to be the best way to determine a building's true 
sustainability.
    As such the GBI recently commissioned a software tool that provides 
LCA results for more than 400 common building assemblies in low- and 
high-rise categories. Prior to its integration into Green Globes, the 
new tool is being reviewed by our ANSI technical committee. It is also 
being created in generic form for use (free of charge) by other rating 
organizations as well as the broader sustainable design community.
    As mentioned previously, the GBI is also preparing to introduce a 
new addition to the Green Globes suite of tools: Green Globes for 
Continual Improvement of Existing Buildings. Designed to complement 
Green Globes for New Construction, the new module will allow building 
owners and managers to evaluate, track and improve the environmental 
performance of their buildings, and to compare multiple buildings 
within a portfolio.

    Question 6. Please provide additional detail on your third-party 
on-site verification process.
    Response. A building cannot be promoted as having achieved a Green 
Globes rating until it undergoes a rigorous third-party verification 
process and the information submitted has been verified by qualified 
and authorized assessor.
    The process features two stages. Stage I can be initiated by the 
design team as soon as the Construction Documents questionnaire is 
finalized. The completed questionnaire is verified against the 
documentation generated during the design process and, providing the 
building is on target to achieve a minimum 35 percent of the 1,000 
possible points, the design team receives a Certificate of Achievement. 
However, a final rating cannot be achieved until after a Stage II 
verification, which occurs post-construction. Stage II includes a site 
visit and walk-through by the third-party verifier and can be initiated 
as soon as construction is complete.
    The GBI currently oversees a team of Green Globes-trained 
verifiers, who are primarily licensed architects and engineers with 
significant experience in building science. However, to further 
strengthen our third-party verification program, we recently announced 
an agreement with CSA America Inc., a leading developer of standards 
and codes, to develop an independently accredited Green Globes 
Personnel Certification Program. CSA America is developing the program 
on behalf of the GBI for assessors using the Green Globes system to 
verify achievements in the design and operation of green buildings. It 
will be the industry's first independently administered certification 
program or third-party verifiers of green buildings.
    The Green Globes Assessor Certification Program will be based on 
ISO 17024 General Requirements for Bodies Operating Certification 
Systems of Persons. Personnel certification is the assessment and 
formal recognition of an individual's competence against objectively 
identified criteria within a specific subject area.

    Senator Lautenberg. Thank you very much, Mr. Hubbell.
    I think that you at this table have won a prize which I 
will call the Noble Prize, which is that each one of you 
finished on time. It is quite a remarkable and a noble 
achievement, and all of you, despite occasional differences in 
view, I think presented excellent testimony. I thank you.
    You know, one of the things that is being discussed at some 
length is there are some differences. Senator Warner of 
Virginia has a bill that has similar characteristics to the one 
that I have proposed, but ours is more demanding in terms of 
the verification of what constitutes a green building.
    One of the things that I would ask, Mr. Fox, does the 
calculation presented by Mr. Templeton about the recovery of 
the extra costs in building a green building, estimated to be 
30 percent more, if I remember, to do it, but recover in 
roughly a 3-year period of time, obviously. Is that consistent 
with your experience in the buildings that you have worked on?
    Mr. Fox. Yes, it is. We are seeing, depending on the type 
of building, anywhere from a 1 percent to maybe a 3 percent 
increase in costs, and the recovery period that we look for in 
all of the innovations that we propose is 5 years or less.
    Senator Lautenberg. What has been the response? You 
obviously have had clients who support the effort and are 
willing to spend the extra money at the time of development, 
knowing very well that they are going to have a much better 
product out there, believing that they will have a healthier 
environment more consistent with our mission to reduce 
greenhouse gases, global warming, et cetera. So it sounds like 
a good investment, but when you see what some of the costs of 
building is, especially when you talk about New York, and I am 
a little familiar with that. It is a suburb of my State of New 
Jersey, you know.
    [Laughter.]
    Senator Lautenberg. We are very interested in what takes 
place there.
    You said that the green design of the B of A Building will 
result in a 50 percent energy saving. Which technologies that 
are part of this design will yield that kind of energy saving 
and how difficult is it to install?
    Mr. Fox. The place where we start is with the building 
envelope, to make that the most efficient, the most energy 
conserving envelope that we can--the windows, the spandrel 
panels, the roof, and try and make that the most high 
performance envelope that we can.
    We then look at the mechanical systems that are delivering 
both heating and cooling to the interior of the space, and make 
those systems the most efficient we can. One of our innovations 
was the ice storage system, which is 44 large tanks 10 feet in 
diameter, 10 feet high, made in New Jersey by a terrific 
company named CALMAC, and get all of those systems in balance 
so that we are using the least amount of energy we can to both 
heat and cool the building.
    All of those technologies are off the shelf. They are 
current state-of-the-art. The ice storage system has been in 
use for decades.
    Senator Lautenberg. How about the aesthetics?
    Mr. Fox. The aesthetics?
    Senator Lautenberg. Yes, of the exterior. I had an 
opportunity to visit with a manufacturer in California of solar 
panels, typically used on roofs, but also could be siding. It 
is incredible, the volume of these things that they are turning 
out now, the solar panels. They have their own character in 
terms of how they appear. I think they are OK, but it is a 
fairly uniform type of thing, I think even in the color.
    So when people are building buildings, they like the 
uniqueness about it, whether it is a gigantic skyscraper or a 
home. So are you able to envelop these programs in the same 
quality of view and aesthetics that you would otherwise be able 
to get?
    Mr. Fox. Well, the answer is yes. This building is a very 
transparent, all glass, prismatic-informed building. We looked 
at photovoltaic panels, which when they are the most efficient 
are a dark purple color. We tried to integrate that into the 
design, and it made the building very stripey, with horizontal 
stripes. So we elected not to proceed with that.
    On the Four Times Square Building, which is also on the 
same block, which has a different facade treatment, we did 
incorporate solar panels in the facade of that building.
    So depending on one's design aesthetic and design approach, 
some of these technologies fit better than others at different 
times.
    Senator Lautenberg. You mentioned the cost of water. Water 
availability is a favorite subject of mine. I traveled to the 
South Pole a couple of years ago to see what the National 
Science Foundation is doing in terms of ice melt and so forth. 
Some time ago, 70 percent of the world's fresh water was stored 
in the ice in Antarctica. As the temperatures increase, we see 
the dissolving virtually of that ice protection, that ice cap. 
As it slides off into the sea, obviously it is less available. 
One of the problems that I think our Country and our world has 
to face pretty darn quickly is the availability of potable 
water and how we are going to adjust to that.
    This mission that all of you are on really deserves 
commendation. The fact is, there are some different approaches, 
obviously, since I am proposing legislation. I tilt toward the 
LEED standard, but respect Mr. Hubbell and the fact that you 
see it differently. I am concerned about the verification. I 
think you said that there were independent ratings created. Who 
is the independent that creates that?
    Mr. Hubbell. We have an ISO-certified organization called 
CSA America that is also an ANSI standards developer. They have 
developed a training course for our third party verifiers. 
These third party verifiers will look at not only the answers 
to the questionnaire and the other things in our system, but 
also look at construction documents and commissioning plans and 
all that. And then, unlike any other rating system that I am 
aware of, we actually do an onsite inspection, so these people 
go to the building, they tour the building, and they spend time 
understanding what systems are in that building and make sure 
that they match with what the building owners have reported.
    Senator Lautenberg. There is a board of directors of the 
organization?
    Mr. Hubbell. Yes.
    Senator Lautenberg. How are they appointed or elected?
    Mr. Hubbell. Well, the board, as you probably know, elects 
itself. We have a very balanced governance model. We have one 
third of our seats devoted to producers; one third devoted to 
users, which we classify as builders, developers, architects, 
people who actually use our system; and then one third devoted 
to third parties, government, NGO's, academicians, that sort of 
thing.
    The other thing, Senator, that we do that I think is unique 
is we have taken the content of our rating system and separated 
it from the organization. The organization, the staff, the 
funders, the board, cannot determine the content of our rating 
system. That is done through an independent consensus process 
through the American National Standards Institute.
    So if you look on our Website, you can see that have a 
technical committee of 30 individuals that come from places 
like the U.S. EPA, American Lung Association, American 
Institute of Architects, as well as representation from 
industry and users. They determine the content of our 
standards. We don't.
    Senator Lautenberg. Mr. Tonjes, what is happening in the 
homebuilding community? Is green a consideration? Are green 
technology standards used today? Is the homebuilding industry 
in part saying that we build healthy homes in their 
advertising?
    Mr. Tonjes. I think it is a big issue to get consensus on, 
but I can tell you that over the last many years, a lot of what 
we consider green building practices have become mainstream as 
part of the regular construction practices. That includes 
engineered wood products, composite materials made up of 
grocery bags and grocery sacks and sawdust, as you will; 
increased insulation.
    So one of the things is that I think you will find across 
the Country one of the major components of green building is 
the energy factor. Energy programs have been long in practice 
in a lot of parts of the Country. Most of these are regionally 
incentivized, if you will. I like to give the example in my 
home State and my home community, which is Austin, TX. I 
actually was one of the first Energy Star builders in a program 
that got started in Austin, TX in 1984. That program eventually 
evolved into the first green building program in 1991. 
Subsequent to that, Energy Star was picked up by the EPA and 
has been very successfully branded.
    You know, a lot of green building practices are measured in 
the energy side of the component. Also in my State, we adopted 
a statewide building code in 2001 and 2003. We adopted a 
statewide energy code. Being in Austin, where we were already 
doing those things, I was quite surprised at the order of 
magnitude of what that did in our State. Texas, as you might 
suspect, is a very large residential building State, with over 
100,000 homes each year. We have made significant gains in 
that.
    Senator Lautenberg. It sounds like your focus is largely, 
certainly primarily, on energy savings, but I believe, as Mr. 
Fox says, there is more to green building than simply energy. 
We talked about water use. We talked about other kinds of 
things. How about what happens in the buildings that are 
sometimes so well insulated that the air gets stale and it 
creates its own problems? Is that a factor that you see? Or Mr. 
Fox, the architect, do you see it? Does green building have to 
go beyond just the energy issues, which is important, by the 
way.
    Mr. Tonjes. If I might address that? Indoor air quality is 
certainly a significant part. A lot of that has to do with the 
design of the home, the commissioning of the home, the 
mechanical system, sizing the mechanical equipment, basically 
your air conditioning, to have the adequate availability to 
both filter the air and get the humidity out of the air, which 
is a huge problem in our State.
    Our State builders association was very successful when we 
first implemented the statewide energy code, of giving 
statewide training to our membership on high performance homes. 
This was done through our State Energy Conservation Office, 
which was supported by the Department of Energy.
    So a lot of these practices go hand in hand, and ultimately 
the result was very startling to improve the indoor air 
quality.
    Senator Lautenberg. Yes.
    Mr. Fox, to my earlier question, is there more to green 
construction than energy saving? Is that the principal 
component? Or is it the emissions that are toxic, or at least 
greenhouse, there also? When you talk about a 40 percent saving 
of energy on the building side of things, that create 
greenhouse gases, 40 percent of the total. It is more than 
energy, is it not?
    Mr. Fox. Yes. Doing a green building, as I have said many 
times, is 100 little things. Some of those 100 have to do with 
energy, and energy is very important, because this is the 
primary issue with CO<INF>2</INF> and climate change. However, 
health is equally important.
    So to put the right materials in a building is extremely 
important, those that don't have volatile organic compounds, 
known carcinogens, and they have existed in carpet and paint 
and wall coverings and fabrics and furniture. I dare say most 
of the furniture in this room was made with volatile organic 
compounds, and probably the carpet.
    In addition, the indoor air quality is very important, so 
how that air gets filtered, how that air gets tempered, how it 
gets delivered. The delivery system in this room comes out of 
the diffusers in the ceiling, and comes out fairly cold, and 
relies on a mixing of air to warm up a little bit before it 
hits us. In the mixing of the air, it is picking up the dust, 
the pollen and the sneezes in this room and delivering it 
equally to everyone, so air delivery is equally important.
    There is a relatively new science called Biophilia. There 
was a book written a number of years ago by E.O. Wilson and the 
ability of people to connect to the natural environment is 
extremely important in terms of health, and the sense of well 
being. I am sure that Claire Barnett would agree with me in 
terms of schools, the ability for these students to connect to 
a natural environment and not be in a classroom with little 
tiny windows is very important. It is the same in our homes.
    The other issue is maintenance.
    Senator Lautenberg. You must keep your eye on the mission 
in order to kind of find your way through the extra things that 
have to be done, the costs, et cetera, the appearances, all of 
those things.
    Ms. Barnett, you touched a sensitive spot with me. I am a 
professional grandfather. I have 10 grandchildren. The oldest 
is 13 and the youngest is 3. What I want for them is what every 
grandparent in the Country wants for their kids: good health, 
able to get an education if they have the capacity, live in a 
peaceful Country.
    So my oldest grandchild who is 13 has a fairly severe 
asthmatic condition, and when he goes to play sports, my 
daughter will first immediately find out where an emergency 
clinic is nearby, so that if he starts to wheeze or otherwise, 
they can get someplace quickly for some relief.
    I see it in the growth of childhood diseases, or at least 
the awareness of a growth in childhood diseases, autism, for 
instance. In New Jersey in 15 years, we went from 240 cases 
diagnosed to 7,500. And so it is I believe for most of the 
Country. And diabetes, with one out of three children born 
today it is believed will be affected by diabetes before death, 
before their lives are over.
    So we have a real mission there, Ms. Barnett. I thank you. 
I would guess that there are startling numbers. What percentage 
of classroom conditions are acceptable for the health of the 
children across this Country? Do you have any idea? Because the 
task is so enormous to correct it, but so again, the mission is 
critical.
    Ms. Barnett. Thank you for the question. I think that there 
is a tremendous intersection of issues when you begin talking 
about schools and children and environment and health. We know 
now a lot more about children and their environmental 
vulnerabilities than we did 5 or 10 years ago. We know a lot 
more now about healthy indoor environments in the peer-reviewed 
sciences than we did 5 or 10 years ago.
    The evidence is clear that health indoor environments are 
good for children. This really is a back to basics call. In 
thinking about architectural design, what is so interesting 
about the old, old school buildings is that they were built to 
be very durable, with terazzo floors. They had very high 
ceilings. They had very tall windows that opened top and 
bottom. That was for natural ventilation and daylight.
    School specifications for design, going back 100 years out 
of New Hampshire and Maine, for example, and New York, talked 
about ``whence cometh the daylight'' to fall on the desks in 
the center of the classrooms, because people then understood 
that children needed fresh air and sunshine to thrive and to 
learn indoors, and needed, lovely views and or having access to 
playgrounds and parks that were safe and usable, both of which 
are wonderful issues in terms of school siting.
    I think that what I want to focus on in my remarks is the 
real need to design out common problems that schools have, and 
design in best solutions. We can all do that for children.
    I think one of the challenges for a volunteer school board 
member, or locally elected official, or a school 
superintendent, is where in the world do you get the 
information and make it easy and accessible and usable within 
your mix of various State education or other aid or technical 
assistance from the State agencies? Connecticut, New York and 
New Jersey are not the same in how their educational systems 
operate, just as one close to home example.
    Senator Lautenberg. Yes.
    Ms. Barnett. The education agencies have different 
capacities and interests and oversight. The energy offices do. 
The health departments have different interests and abilities. 
The ability to put together environment, energy, education and 
health and come up with what States really need to do to ensure 
that every child has a healthy, high performance school should 
be made simpler for local schools.
    One of the things that happens to us when we are doing 
either public hearing testimony or making community 
presentations is the frequent question of, well, ``I want a 
green school; I want a green building. Do I have to start from 
scratch? Do I have to have a new building? Is that the only way 
to get one? ''
    So my organization talks about the greening of existing 
buildings through greening of the operations and the purchasing 
of school, and then for local districts to plan to gradually 
upgrade their facilities as renovation projects and minor 
maintenance and repair take place.
    The bigger question is: Is there great national data on who 
is doing what out there. The answer is no. There is no Federal 
Agency or system of oversight or recordkeeping that addresses 
the conditions of buildings within the States. There are 
estimates that have been done by U.S. GAO and by the NEA, but 
there is not a formalized structured system. There are systems 
of facility inspection reporting in a few States, but not 
nationally.

    Requested. Our office coordinated a national report on the topic, 
``Lessons Learned'' with contributions from 28 groups nationally. It 
provides State by State data tables from Federal sources and estimates 
the numbers of children at serious risk.
    [See report on page 123.]
    Requested. As one example of how facility data is important, New 
York State initiated a system of school building inspection reporting 
in 1999, primarily to estimate school capital needs. In 2005, our NYS 
program did a study of all 100 schools in two upstate counties: we 
merged the facility data with the school `report cards' (on student 
characteristics and achievement), and found that the conditions of the 
facilities were related to attendance, test scores, and--very 
surprisingly--suspension rates.
    [See report on page 190.]

    Senator Lautenberg. Thank you.
    Mr. Templeton, in your testimony, you indicate that a dozen 
Federal agencies, 22 States, and 75 local governments have 
created policies that use or encourage the use of the LEED 
standard. Now, how does the LEED standard adapt to meet the 
needs of these different levels of government? How does the 
standard continually evolve to meet new problems and new 
technologies?
    Mr. Templeton. As you can imagine, the diversity of States 
and local municipalities in particular, but also the building 
types that are addressed within the Federal agencies does 
require a flexible system in order to respond to the diversity 
of project types and regions and scales of those projects.
    LEED has been structured in a flexible framework that 
addresses environmental impact categories so that it can be 
applied universally across all of these factors. So we do see 
everything from school projects to commercial office projects 
to retail projects to high rise towers, all being able to use 
the same rating system in a much more diverse way. There are 
several dozen different building types that are currently using 
the LEED rating system across these different options.
    Senator Lautenberg. Thank you.
    One kind of last observation. Ms. Barnett, my bill directs 
EPA to develop model guidelines and provide grants to States to 
develop healthier schools. When we look at the magnitude of the 
problems to make existing buildings greener, and I assume that 
with rare exceptions it is possible to do it, but the cost may 
in some cases not be worth it, as opposed to starting over.
    But without Federal money and guidelines from the EPA, Ms. 
Barnett, would States be inclined to implement these 
environmental best practices? How are the States doing now?
    Ms. Barnett. Some of the States are involved and doing very 
good work. One of the largest issues facing all schools 
nationally is the problem of indoor air pollution. Any building 
which is poorly sited, poorly constructed, engineered, 
designed, operated, maintained is going to have a collection of 
problems which generally reflect themselves in poor indoor air 
quality. So it is a layering effect of multiple issues.
    There are more than 15 States now, probably closer to 20, 
which have adopted various best practices or regulations around 
indoor environmental quality and indoor air quality, 
specifically in schools. There are more than 30 States that 
have adopted restrictions on pesticide use in schools.
    So there are States that are taking action. There are a 
number of States, for example Washington, New York, New 
Hampshire, Massachusetts, California, and I think Oregon is 
getting involved, and Ohio as well, in doing statewide 
adaptations of ``high performance school'' design, and applying 
``LEED-plus high performance school'' design to school 
construction. See Collaborative for High Performance School 
design at www.chps.net.
    So it is very possible. States know they have a problem. 
Parents know that there is a problem, and school boards 
actually know that there is a problem. Trying to get your arms 
around the best solutions and how to accelerate the 
implementation of best practices in the field is a real 
challenge. That is why we particularly like the emphasis in S. 
506, your bill of allowing EPA to work with the States to help 
them create comprehensive environmental quality plans for 
schools.
    Senator Lautenberg. Our mission is green. It takes green to 
do it. Hopefully, that green will come from the Federal 
Government in some part so that we can encourage the 
development of these healthier buildings.
    I think thematically what we ought to be saying is help 
children stay healthy or get healthier, and focus on that, and 
let people realize that while it may take some resources, that 
the mission is so well worth it.
    I thank each one of you for your appearance here today. You 
contributed something to the debate. It is very important while 
we have some differences, once again I think the goal is more 
than an appropriate one. I thank you.
    We will keep the record open for questions, and I would ask 
that if we have written questions to submit to you, that you 
respond as promptly as you can.
    Thank you very, very much.
    This committee is adjourned.
    Whereupon, at 11:15 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
